1a

IN THE SUPREME COURT OF TEXAS
NO. 20-0127
IN RE DIOCESE OF LUBBOCK, RELATOR
ON PETITION FOR WRIT OF MANDAMUS
Argued January 6, 2021
JUSTICE DEVINE delivered the opinion of the
Court, in which CHIEF JUSTICE HECHT, JUSTICE
GUZMAN, JUSTICE LEHRMANN, JUSTICE
BLACKLOCK, JUSTICE BUSBY, JUSTICE BLAND,
and JUSTICE HUDDLE joined.
JUSTICE BLACKLOCK filed a concurring
opinion.
JUSTICE BOYD filed a dissenting opinion.
The ecclesiastical abstention doctrine prohibits
civil courts from delving into matters of “theological
controversy,
church
discipline,
ecclesiastical
government, or the conformity of the members of the
church to the standard of morals required of them.”
Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S.
696, 714 (1976) (quoting Watson v. Jones, 80 U.S. 679,
733 (1871)). The doctrine is grounded in the First
Amendment, which protects the right of religious
institutions “to decide for themselves, free from state
interference, matters of church government as well as
those of faith and doctrine.” Kedroff v. St. Nicholas
Cathedral of Russian Orthodox Church, 344 U.S. 94,
116 (1952).

2a

In this original mandamus proceeding, the
Diocese of Lubbock, as relator, asserts that
ecclesiastical abstention prohibits the trial court from
assuming jurisdiction over a suit brought by one of its
ordained deacons against the Diocese and that the
trial court should have therefore granted the
Diocese’s plea to the jurisdiction. The suit arises out
of an internal investigation by the Diocese into its
own clergy, the inclusion of the deacon’s name on a
list of its clergy credibly accused of sexual abuse of a
minor, and the Diocese’s public statements regarding
the list and church reforms following its release to the
Diocese’s public website. The deacon maintains that
he has never sexually abused a child and that the
Diocese defamed him by publicly implying that those
on the list were indeed guilty of such abuse.
The court of appeals denied the Diocese’s
petition for mandamus relief, concluding that the
Diocese’s investigation lost ecclesiastical protection
when it went beyond church walls and related to an
issue—sexual abuse—that is not strictly and purely
ecclesiastical. 592 S.W.3d 196 (Tex. App.—Amarillo
2019). Under the First Amendment, however, courts
must abstain from exercising civil jurisdiction over
claims that require them to “resolve a religious
question” or “impede the church’s authority to manage
its own affairs.” Westbrook v. Penley, 231 S.W.3d 389,
397 (Tex. 2007). We conclude that the substance and
nature of the deacon’s claims against his church will
necessarily require the trial court to evaluate whether
the Diocese properly applied Canon Law and are
inextricably intertwined with the Diocese’s internal
directive to investigate its clergy. That is, the deacon’s



3a

claims relating to the Diocese’s publication and
communication of the results of its investigation
cannot be severed from its policy to investigate its
clergy in the first place. Thus, we conditionally grant
the Diocese’s petition for writ of mandamus and direct
the trial court to dismiss the deacon’s underlying
lawsuit.
I. Background
Jesus Guerrero was ordained as a deacon of the
Diocese of Lubbock in 1997. Deacons are ministers in
the Catholic Church, authorized to baptize
parishioners, assist the priest at Mass, preach
homilies, celebrate weddings, and conduct funeral
rites. In 2003, the Diocese temporarily suspended
Guerrero’s diaconal faculties after receiving reports of
sexual misconduct involving Guerrero and a woman
with a history of mental and emotional disorders.
Upon completion of an investigation, the Bishop of the
Diocese indefinitely suspended Guerrero’s diaconal
faculties and privileges. In July 2006, the Diocese
granted Guerrero’s request for reinstatement of his
diaconal faculties. However, a new allegation and
subsequent investigation of sexual misconduct
involving Guerrero and the same woman led Bishop
Placido Rodriguez to permanently withdraw
Guerrero’s diaconal faculties in November 2008.
Although Guerrero may no longer perform
sacramental functions, he was not laicized and
remains an ordained deacon.
The Texas Catholic Church consists of fifteen
dioceses, each led by a bishop. Each diocese uses its
own website to communicate with its members. In



4a

September 2018, to assist victims of abuse and
improve transparency with Catholics in all the Texas
Dioceses, the Catholic Bishops of Texas decided to
release the names of those clergy against whom
credible allegations of sexual abuse of a minor have
been raised. After the individual dioceses completed a
review of their files and compiled their lists, the
respective lists were posted on each diocese’s website
on January 31, 2019, along with an accompanying
statement.
Guerrero’s name was included on the Lubbock
Diocese’s list. The list, entitled “Names of All Clergy
with a Credible Allegation of Sexual Abuse of a
Minor,” stated its purpose and the process of
determining who belonged on the list; it also invited
others to report any sexual abuse experiences to the
Diocese. The list included names of priests or clergy
against whom a “credible allegation” had been made
since the Lubbock Diocese’s inception in June 1983. A
priest or clergy had a “credible allegation” of sexual
abuse of a minor if “after review of reasonably
available, relevant information in consultation with
the Diocesan Review Board or other professionals,
there is reason to believe [it] is true.” To prepare the
list, the Diocese’s attorney “engage[d] the services of a
retired law enforcement professional and a private
attorney to review all clergy files for any credible
allegations of abuse of minors.” The list, as originally
published, did not include the canonical meaning of
the term “minor,” which the Diocese asserts—under
Canon Law—includes “a person who habitually lacks
the use of reason” and encompasses any “person
deemed vulnerable due to a health or mental
condition.”



5a

The Diocese issued a news release the same day
that it published the list. The news release stated the
Lubbock Diocese joined the other Texas Dioceses “to
release names of clergy who have been credibly
accused of sexually abusing a minor, going back at
least to 1950 or to the year of the establishment of the
[D]iocese.” The decision to release the list “was made
in the context of [the Church’s] ongoing work to protect
children from sexual abuse” and “to promote healing
and a restoration of trust in the Catholic Church.”
Bishop Robert Coerver explained in a letter that the
Diocese released the names as part of a broader, goodfaith effort to restore the trust and confidence of its
membership and because the Diocese is “serious about
ending the cycle of abuse in the Church and society at
large.”
A local news station interviewed Chancellor and
Marty Martin, the Lubbock Diocese’s principal notary
administrative manager, about the list. The report
stated that while the Church had previously disclosed
past incidents of sexual abuse to the authorities and to
other church members, the recent investigation
stemmed from a desire to ensure that the Church was
a safe environment for everybody. It quoted
Chancellor Martin as saying that “the [C]hurch is safe
for children.”
Guerrero demanded a retraction of his name
from the list. See TEX. CIV. PRAC. & REM. CODE §
73.055. In response, the Diocese sent Guerrero a letter
explaining that the Bishops from the Texas Dioceses
formulated a plan in 2018 to evaluate which of its
priests and clergy had been credibly accused of sexual



6a

abuse of a minor. The Lubbock Diocese derived its plan
from the Charter for Protection of Children and Young
People (the Charter), which was authored by the
United States Conference of Bishops. The Charter
encourages more transparency within the Catholic
Church around issues of sexual abuse and represents
a shift in how sexual abuse within the Church is
addressed. For instance, the Charter arranges review
boards to assess allegations of sexual abuse of a
“minor” to determine a priest’s or clergy’s suitability
for ministry. Consistent with Canon Law, the Charter
defines “minor” to include those who habitually lack
the use of reason and are therefore deemed vulnerable
adults. The letter also detailed some of the separate
reports of sexual assault that the Lubbock Diocese had
received against Guerrero. It went on to state that
“[t]he adult female involved in these incidents . . . is
severely bi-polar, is not allowed to drive, and may not
have been on her medications at the time of the various
instances which were witnessed.” Based on the
investigation by the Diocesan Review Board and an
independent review committee, the letter concluded,
the Lubbock Diocese had determined that the
allegations of sexual abuse of a “minor” against
Guerrero were credible, as understood by Canon Law.
Guerrero subsequently filed suit, alleging
defamation and intentional infliction of emotional
distress. The Diocese responded with a motion to
dismiss under the Texas Citizens Participation Act
(TCPA), asserting that Guerrero’s suit related to the
Diocese’s right to free speech. See id. § 27.003 The
Diocese also filed a plea to the jurisdiction arguing
that the ecclesiastical abstention doctrine precluded
the trial court from exercising jurisdiction over the



7a

suit under the First Amendment. The trial court
denied both motions. The Diocese appealed the
interlocutory order denying the TCPA motion to
dismiss, see id. § 27.008, and filed an original petition
seeking mandamus relief from the order denying its
plea to the jurisdiction.
The court of appeals affirmed in part and
reversed in part the trial court’s denial of the Diocese’s
TCPA motion to dismiss, Diocese of Lubbock v.
Guerrero, 591 S.W.3d 244, 248 (Tex. App.—Amarillo
2019), and denied the Diocese’s mandamus petition in
a separate opinion, In re Diocese of Lubbock, 592
S.W.3d 196, 198 (Tex. App.—Amarillo 2019, orig.
proceeding). In denying mandamus relief, the court of
appeals reasoned that, once the Diocese released the
list to the public, the dispute was no longer
ecclesiastical because it extended beyond the church
polity and involved incidents that had occurred more
than nine years prior. Id. at 202–03. The court
concluded that the Diocese’s decision to post the list
online, engage with the media, and release public
statements indicated an intentional effort to engage
externally with the public instead of internally with
the church. Id. at 203–04. This “pivotal nuance” of
intentional public engagement, the court reasoned,
demonstrated the absence of an ecclesiastical matter.
Id. at 202. The list and accompanying statements
revealed the Diocese’s intent to engage with society at
large without “any nexus between the Diocese’s
conduct and any theological, dogmatic, or doctrinal
reason for engaging in it.” Id. at 204. Finally, the court
rejected the Diocese’s argument that the case would
require a court to determine the canonical meaning of
“minor” because a statement’s defamatory meaning (or

8a

lack thereof) is based on “how a person of ordinary
intelligence would perceive the accusation.” Id. The
court of appeals determined that the list and the
Diocese’s accompanying statements referenced abuse
of a “minor” and “children,” which are terms of secular
meaning and would not require consideration of any
ecclesiastical meaning. Id. at 205.
In this Court, the Diocese petitions for review
of the court of appeals’ affirmance of the order denying
its motion to dismiss under the TCPA and again seeks
mandamus relief from the denial of its plea to the
jurisdiction. We granted the Diocese’s petition for
review and consolidated it with the petition for writ of
mandamus for argument. Because the jurisdictional
issue presented in the mandamus petition is
dispositive, we dismiss the cause in the accompanying
TCPA appeal, see Diocese of Lubbock v. Guerrero, No.
20-0005, ___ S.W.3d ___ (Tex. 2021) (per curiam), and
turn to the request for mandamus relief, see BP Am.
Prod. Co. v. Laddex, Ltd., 513 S.W.3d 476, 479 (Tex.
2017) (addressing first the issue that would deprive a
court of exercising jurisdiction).
II. Standard of Review
Mandamus relief is appropriate when the trial court
lacks jurisdiction to hear a case. See In re Crawford &
Co., 458 S.W.3d 920, 929 (Tex. 2015) (per curiam); In
re Entergy Corp., 142 S.W.3d 316, 320–21 (Tex. 2004).
“Lack of jurisdiction may be raised by a plea to the
jurisdiction when religious-liberty grounds form the

9a

basis for the jurisdictional challenge.”1 Westbrook,
231S.W.3d at 394. We review a trial court’s ruling on
a plea to the jurisdiction de novo. Hous. Belt &

In Hosanna-Tabor Evangelical Lutheran Church & School v.
EEOC, 565 U.S. 171 (2012), the United States Supreme Court
concluded that the “ministerial exception”—a doctrine that is
independent of but related to abstention and addresses
employment disputes between churches and its ministers—
“operates as an affirmative defense to an otherwise cognizable
claim, not a jurisdictional bar.” Id. at 188, 195 n.4. Some courts
have taken this to mean that the ecclesiastical abstention doctrine
now operates only as an affirmative defense. See, e.g., Doe v. First
Presbyterian Church U.S.A. of Tulsa, 421 P.3d 284, 290–91 (Okla.
2017); Pfeil v. St. Matthews Evangelical Lutheran Church of
Unaltered Augsburg Confession of Worthington, 877 N.W.2d 528,
534–35 (Minn. 2016); St. Joseph Cath. Orphan Soc’y v. Edwards,
449 S.W.3d 727, 737 (Ky. 2014). Other courts have continued to
apply the doctrine as a jurisdictional bar after Hosanna-Tabor.
See, e.g., Church of God in Christ, Inc. v. L.M. Haley Ministries,
Inc., 531 S.W.3d 146, 157 (Tenn. 2017); Diocese of Palm Beach, Inc.
v. Gallagher, 249 So. 3d 657, 661 (Fla. Dist. Ct. App. 2018); In re
St. Thomas High Sch., 495 S.W.3d 500, 513–14 (Tex. App.—
Houston [14th Dist.] 2016, no pet.). This past term, the Supreme
Court in Our Lady of Guadalupe School v. Morrissey-Berru, 140 S.
Ct. 2049 (2020), reaffirmed religious institutions’ ecclesiastical
autonomy in matters of faith, doctrine, ministry, and
governance. Id. at 2060–61. The Court left undisturbed its
pronouncement in Watson v. Jones, 80 U.S. 679 (1871), that
those matters implicating “theological controversy, church
discipline, ecclesiastical government or the conformity of the
members of the church to the standards of morals required”—
that is, those matters that the ecclesiastical abstention doctrine
covers—relate to a court’s jurisdiction to hear a case. Id. at 733.
And Watson remains binding until the Supreme Court says
otherwise. See Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016) (per
curiam) (citations omitted).
1





10a

Terminal Ry. Co. v. City of Houston, 487 S.W.3d 154,
160 (Tex. 2016). A court should deny a plea to the
jurisdiction when “the pleader has alleged facts that
affirmatively demonstrate the court’s jurisdiction to
hear the cause.” City of El Paso v. Heinrich, 284
S.W.3d 366, 378 (Tex. 2006) (internal quotations
omitted). “If the pleadings affirmatively negate
jurisdiction,” however, the plea should “be granted
without affording the plaintiff[] an opportunity to
replead.” Hous. Belt & Terminal Ry. Co., 487 S.W.3d
at 160 (citing Tex. Dep’t of Parks & Wildlife v.
Miranda, 133 S.W.3d 217, 227 (Tex. 2004)).
III.

Discussion
A

The Lubbock Diocese contends that mandamus
relief is appropriate because the First Amendment
forecloses the courts’ jurisdiction. The First
Amendment prohibits government—and courts—from
interfering with a believer’s ability to observe his faith
and from interfering with a church’s management of
its internal affairs. EEOC v. Cath. Univ. of America,
83 F.3d 455, 460 (D.C. Cir. 1996); see Kreshik v. St.
Nicholas Cathedral, 363 U.S. 190, 191 (1960) (per
curiam). Churches have a fundamental right under the
First Amendment to decide for themselves, free from
state interference, matters of church governance as
well as those of faith and doctrine. Westbrook, 231
S.W.3d at 397 (citing Watson, 80 U.S. at 728–29). It is
a core tenet of the First Amendment that in resolving
civil claims courts must be careful not to intrude upon
internal affairs of church governance and autonomy.
Id. Autonomy extends to the rights of hierarchical



11a

religious bodies to establish their own internal rules
and regulations and to create tribunals for
adjudicating disputes over religious matters.
Milivojevich, 426 U.S. at 708–09, 724–26. And it
extends to a church’s conclusions regarding its own
ecclesiastical rules, customs, and laws. Brown v.
Clark, 116 S.W. 360, 363 (Tex. 1909). Government
action that interferes with this autonomy or risks
judicial entanglement with a church’s conclusions
regarding its own rules, customs, or laws is therefore
prohibited by the First Amendment. See Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 532 (1993); Kedroff, 344 U.S. at 116; Brown, 116
S.W. at 363.
The First Amendment does not bar all claims
against religious bodies, though. Tilton v. Marshall,
925 S.W.2d 672, 677 (Tex. 1996). A court may exercise
jurisdiction over a controversy if it can apply neutral
principles of law that will not require inquiry into
religious doctrine, interference with the free-exercise
rights of believers, or meddling in church government.
Westbrook, 231 S.W.3d at 398–400. Under the neutralprinciples methodology, “courts decide nonecclesiastical issues such as property ownership based
on the same neutral principles of law applicable to
other entities, while deferring to religious entities’
decisions on ecclesiastical and church polity
questions.” Masterson v. Diocese of Nw. Tex., 422
S.W.3d 594, 596 (Tex. 2013) (internal citation
omitted); see also Westbrook, 231 S.W.3d at 399.
Although we have yet to apply the neutral-principles
methodology outside church property disputes, lower
courts in Texas have found them applicable in certain,
narrow circumstances. See, e.g., Shannon v. Mem’l

12a

Drive Presbyterian Church U.S., 476 S.W.3d 612, 624–
25 (Tex. App.—Houston [14th Dist.] 2015, pet. denied)
(concluding ecclesiastical abstention did not bar a suit
that arose out of a church’s violation of a settlement
agreement, which was not an inherently ecclesiastical
activity). Indeed, any exception to ecclesiastical
abstention by application of neutral principles must
be narrowly drawn to avoid inhibiting the free
exercise of religion or imposing secular interests on
religious controversies. Jones v. Wolf, 443 U.S. 595,
603–05 (1979); Milivojevich, 426 U.S. at 710. In other
words, courts should consider not only whether a
neutral principle exists without regard to religion,
but also whether the application of neutral principles
would impose civil liability upon a church for
complying with its own internal rules and
regulations or resolving a religious matter.
Westbrook, 231 S.W.3d at 400.
The Diocese argues that the ecclesiastical
abstention doctrine bars Guerrero’s suit because civil
court intervention in this dispute would (1) impede
church governance and (2) require interpretation and
review of Canon Law. Guerrero, however, contends
that abstention does not apply because the alleged
defamatory statements are “not strictly and purely
ecclesiastical in nature.” According to Guerrero, the
Diocese was not clear in what it meant by the term
“minor” when it released its list. To Guerrero, this
omission is “the crux of this case” because the
surrounding context of the list suggests that the
Diocese meant “child” when it said “minor.” Guerrero
suggests that had the Diocese explained it meant
“vulnerable adult” when referring to “minor,” or that
it referred to minor “according to Canon Law,” then



13a

the determination of whether to include him on the
list may have been a strictly ecclesiastical one and
therefore protected from intrusion by the First
Amendment. Moreover, Guerrero contends that this
is not an issue of church governance because the
statements extended beyond church walls and reflect
the Diocese’s desire to engage with society on a social
issue—sexual abuse.
B
In
determining
whether
ecclesiastical
abstention applies, courts will analyze whether a
particular dispute is ecclesiastical or merely a civillaw controversy in which the church happens to be
involved.2 See Tran v. Fiorenza, 934 S.W.2d 740, 743
(Tex. App.—Houston [1st Dist.] 1996, no writ). In
making this determination, we look to the substance
and nature of the plaintiff’s claims. See Patton v.
Jones, 212 S.W.3d 541, 548 (Tex. App.—Austin 2006,
pet. denied). Because courts are prohibited from
risking judicial entanglement with ecclesiastical
matters, see Our Lady of Guadalupe School v.
Morrissey-Berru, 140 S. Ct. 2049, 2069 (2020), if the
substance and nature of the plaintiff’s claims are
inextricably intertwined with matters of doctrine or
church governance, then the case must be dismissed,

Put differently, a church is not immune from tort liability
merely because it is a church, regardless of whether a church
member or non-church member brings the suit. See, e.g., Cox v.
Thee Evergreen Church, 836 S.W.2d 167 (Tex. 1992) (church
member slip-and-fall claim against church); Zion Missionary
Baptist Church v. Pearson, 695 S.W.2d 609 (Tex. App.—Dallas
1985, writ denied) (contract claim against church for unpaid
balances).

2



14a

Jennison v. Prasifka, 391 S.W.3d 660, 665, 668 (Tex.
App.— Dallas 2013, no pet.).
In his petition, Guerrero alleges that the
Diocese defamed him by including his name on a list
of clergy “credibly accused of sexual abuse of a minor,”
disclosing that list to the public, and discussing the list
with the media. He goes on to assert that the Diocese’s
communications were defamatory “both in their
particular details and in their main point, essence or
gist,” “in that they falsely state that Jesus Guerrero
was and had been ‘credibly accused’ of sexual
misconduct of [sic] a minor.” Guerrero maintains that
the Diocese reached its conclusion to include him on
the list despite a lack of evidence supporting that
conclusion, asserting that he “has never admitted to
any sexual misconduct, he was not criminally charged
with anything[,] and no one ever testified that
Guerrero did anything inappropriate” with the woman
who was the subject of the abuse allegations.
He disputes whether the woman would qualify
as a minor under Canon Law and whether the Diocese
has credible allegations against him generally. He
reiterated these claims at oral argument.
As the Lubbock Diocese explained in response
to Guerrero’s request for a retraction, the list arose out
of and was created in accordance with the Charter—a
directive authored by the United States Conference of
Bishops for each diocese to investigate allegations of
sexual misconduct committed by its clergy against
minors. In conducting its review, and as reflected in
its revised list released in April 2019, the Lubbock
Diocese investigated allegations of abuse committed

15a

against “person[s] who habitually lack[] the use of
reason” or those deemed “minors” under Canon Law.
Evidence in Guerrero’s file coupled with a two-tiered
review process led the Diocese to determine that it
possessed credible allegations against Guerrero of
sexual abuse of a “minor.” In compliance with its
directive to be more “open and transparent in
communicating with the public of sexual abuse of
minors by clergy,” it placed the list on its website—the
Diocese’s means of ordinary communication with its
members.
To the extent that Guerrero’s claims directly
call into question the Diocese’s investigation and
conclusions that led to the creation of the list, they
necessarily reach behind the ecclesiastical curtain. In
Westbrook, we acknowledged that the plaintiff
properly abandoned her defamation claim regarding
the defendant’s statement about her “biblical
impropriety” because such a question would have
required the Court to delve into the religious question
of whether her behavior was biblically improper. 231
S.W.3d at 396. Resolution of the plaintiff’s defamation
suit would have required the Court to evaluate the
meaning of biblical impropriety and whether the
defendant was accurate in his conclusions. This is
because “[t]rue statements cannot form the basis of a
defamation complaint.” Double Diamond, Inc. v. Van
Tyne, 109 S.W.3d 848, 855 (Tex. App.—Dallas 2003, no
pet.) (citing Randall’s Food Mkts., Inc. v. Johnson, 891
S.W.2d 640, 646 (Tex. 1995)). As Guerrero states in his
petition, determining whether the Diocese incorrectly
included his name on the list would require a court to
evaluate whether the Diocese “falsely state[d] that
Jesus Guerrero was and had been ‘credibly accused’ of



16a

sexual misconduct of [sic] a minor.” However, as the
Diocese informed Guerrero, it based the scope of its
investigation on the canonical meaning of minor: “a
person who habitually lacks the use of reason,” which
includes “vulnerable adults.” Thus, a court would have
to evaluate whether the Diocese had credible
allegations against Guerrero under the canonical
meaning of “minor.” This would necessarily entail a
secular investigation into the Diocese’s understanding
of the term “minor,” whether a court agrees that the
woman he allegedly sexually abused qualifies as a
“minor” under Canon Law, and whether the
allegations it possesses were sufficiently “credible.”
See Kavanagh v. Zwilling, 997 F. Supp. 2d 241, 247,
252–54 (S.D.N.Y. 2014) (holding court lacked
jurisdiction over plaintiff’s libel per se claim based on
a church’s press release that plaintiff “was found
guilty by a Church court of multiple counts of sexual
abuse of a minor”).
This inquiry would not only cause a court to
evaluate whether the Diocese properly applied Canon
Law but would also permit the same court to
interlineate its own views of a Canonical term. Indeed,
any investigation would necessarily put to question
the internal decision making of a church judicatory
body. See, e.g., Whole Woman’s Health v. Smith, 896
F.3d 362, 373–74 (5th Cir. 2018) (trial court’s pretrial
order compelling religious organization to respond to
discovery was an abuse of discretion because it would,
in part, reveal internal communications and interfere
with decision-making processes of the religious
organization). But courts may not investigate and
resolve the application of religious doctrine and
practice. See Presbyterian Church in U.S. v. Mary



17a

Elizabeth Blue Hull Mem’l Presbyterian Church, 393
U.S. 440, 449 (1969) (“First Amendment values are
plainly jeopardized when church property litigation
is made to turn on the resolution by civil courts of
controversies over religious doctrine and practice.”).
And, to prevent courts from impermissibly
influencing church governance, see Our Lady of
Guadalupe Sch., 140 S. Ct. at 2060, courts may not
second-guess the decisions reached by a church
judicatory body in the application of its own rule,
custom, or law, see Brown, 116 S.W. at 363. Thus, to
the extent Guerrero’s suit directly challenges the
Diocese’s application of Canon Law in its internal
governance process, the court lacks jurisdiction.
The court of appeals concluded that a “pivotal
nuance” in this case is that the Diocese’s
communication went beyond church walls. 592
S.W.3d at 202. It reasoned that a key fact in
determining whether ecclesiastical abstention
applies is to whom the church communicated. Id. The
court observed that a church publicizing “matters
historically deemed ecclesiastical” undermines a
church’s ability to argue that the “dispute remains an
internal ecclesiastical or church polity issue.” Id.
That is, the court of appeals focused primarily on the
publication of the list without regard to the Diocese’s
reason for including Guerrero on the list. Id. at 202–
04.
Whether a party’s claims against a church are
barred by ecclesiastical abstention, though, is based
not on whether a publication goes beyond church
walls but rather whether the substance and nature of
the plaintiff’s claims implicate ecclesiastical matters,

18a

including a church’s internal affairs, governance, or
administration. Westbrook, 231 S.W.3d at 396–97;
Williams v. Gleason, 26 S.W.3d 54, 59 (Tex. App.—
Houston [14th Dist.] 2000, pet. denied). The court of
appeals’ distinction runs afoul of our directive in
Westbrook that a court may not rely on neutral
principles when application of those principles would
impose civil liability on a church that complies with
its own internal governance. 231 S.W.3d at 400. The
court of appeals’ focus on the publication ignores the
real critical nuance in this case: that Guerrero’s suit
is “inextricably intertwined” with the Diocese’s
decision to investigate its own clergy, judicial review
of which would impermissibly interfere with a
church’s ability to regulate the character and conduct
of its leaders. Jennison, 391 S.W.3d at 668; see
Hosanna-Tabor, 565 U.S. at 201.
In Westbrook, a former church member claimed
that her secular counselor—who was also her
pastor—violated a secular duty of confidentiality
when he disclosed to church elders information she
had discussed during counseling. 231 S.W.3d at 396,
402. We concluded that ecclesiastical abstention
barred the suit. Id. at 402–05. We reasoned that the
pastor had conflicting duties, one as a secular
counselor to maintain the confidentiality of his clients
and the other to comply with church directives to
disclose a member’s conduct that may be unbecoming
of the church’s moral standards. Id. at 391–92, 402–
03 (“[T]he publication about which [the former
member] complains was made in the course of the
church disciplinary process and communicated by
[the counselor] pursuant to the requirements of that
process.”). In holding that the First Amendment

19a

barred adjudication of the suit, we recognized that
allowing the former member’s professional negligence
claim to proceed would impose civil tort liability on a
pastor who complied with an internal church directive
and policy to disclose the relationship in a manner
consistent with church teaching. Id. at 402 (citing
Milivojevich, 426 U.S. at 717 (stating that “questions
of church discipline and composition of the church
hierarchy are at the core of ecclesiastical concern”)).
Similarly, Guerrero’s suit seeks to impose
liability on the Diocese for complying with its
directive to investigate allegations of sexual abuse of
its clergy. See Hosanna-Tabor, 565 U.S. at 190
(prohibiting “government interference with an
internal church decision that affects the faith and
mission of the church itself”). Investigations that
relate to the character and conduct of church leaders
are inherently ecclesiastical. See id. at 201 (Alito, J.,
concurring) (“[B]oth the content and credibility of a
religion’s message depend vitally on the character
and conduct of its teachers . . . . For this reason, a
religious body’s right to self-governance must include
the ability to select, and to be selective about, those
who will serve as the very ‘embodiment of its message’
and ‘its voice to the faithful.’”). Although tort law
imposes a duty not to defame or intentionally inflict
emotional distress upon others, see Hersh v. Tatum,
526 S.W.3d 462, 465 (Tex. 2017); In re Lipsky, 460
S.W.3d 579, 593 (Tex. 2015), a civil suit that is
inextricably intertwined with a church’s directive to
investigate its clergy cannot proceed in the courts.
And as the Diocese disclosed to Guerrero, it was
acting in accord with the Charter’s directive to



20a

investigate its clergy. The Diocese stated that it
applied Canon Law and instituted a review process by
which it would evaluate whether the allegations and
evidence it possessed against its clergy were credible.
It is the fruit of this investigation about which
Guerrero complains, and the publications he contests
merely reflect the investigative result. Bishop
Coerver’s official list and accompanying explanation
provide general information about each clergy on the
list, the Diocese’s news release offered its motivation
for conducting the investigation, and the
accompanying news reports describe the Diocese’s
transition to more transparency. Thus, Guerrero’s
challenge to any publication is ultimately a challenge
to the Diocese’s underlying investigation into its own
clergy and application of Canon Law. A civil court,
though, is prohibited from determining whether a
church properly applied its own principles and policies,
see NLRB v. Cath. Bishops of Chicago, 440 U.S. 490,
502 (1979); Brown, 116 S.W. at 363, and from
interfering with internal management decisions that
are central to its mission, such as investigating the
conduct and character of its clergy, see Our Lady of
Guadalupe Sch., 140 S. Ct. at 2060; Hosanna-Tabor,
565 U.S. at 201 (Alito, J., concurring).
The court of appeals’ opinion in Shannon
provides a helpful contrast. In that case, Memorial
Presbyterian Church and its former employee, Jessica
Shannon, reached an agreement settling a dispute
about her termination. 476 S.W.3d at 618. The
agreement included a nondisparagement clause. Id.
After Shannon obtained employment at Austin
Presbyterian Theological Seminary as a development
officer, which required her to raise funds for the



21a

Seminary, it reached out to Memorial Presbyterian for
her references. Id. The church’s executive director,
acknowledging that the parties had reached a
settlement agreement that limited what he could say,
made a variety of statements regarding Shannon’s
ability to carry out her duties to raise funds, which
Shannon alleged led to her termination. Id. at 618–19.
In concluding that the ecclesiastical abstention
doctrine did not bar the suit, the court reasoned that
Shannon’s claims were directed at Memorial
Presbyterian’s violation of the nondisclosure
agreement. Id. at 624. The statements that Shannon
identified as leading to her termination related to her
capacity to operate as a development officer and raise
funds, unrelated to any ministerial or clerical role. See
id. at 624–25. The court could apply neutral principles
of contract law to determine whether the church
disparaged her in violation of the settlement
agreement without intervening in areas traditionally
held to involve religious doctrine; interpreting church
constitutions, by-laws, or governing documents; or
deciding matters of the congregational or hierarchical
nature of the church. Id.
The same is not true for Guerrero. Unlike in
Shannon, Guerrero’s claim is tied to the Diocese’s
decision to investigate allegations against its clergy.
The actions complained of in Shannon were divorced
from the employee’s underlying termination and any
other traditional matter of church governance. Id.
The reference provided by Memorial Presbyterian’s
executive director was about Shannon’s capacity to
function as a development officer, not a pastor. Id.
Thus, the court was able to apply neutral principles
of contract law to determine whether the church



22a

complied with the settlement agreement, which was
not itself ecclesiastical, and the claims did not require
the court “to intervene in the hiring, firing, discipline,
or administration of the Church’s clergy” or the
exercise of its First Amendment rights. Id. at 624.
Although Guerrero contends that neutral
principles could resolve this dispute, his own
pleadings and concessions cut against this argument
because his suit ultimately challenges the result of a
church’s internal investigation into its own clergy,
which is inherently ecclesiastical. Even to the extent
that his suit challenges the publication of the list, as
the court of appeals concluded, the Diocese only
published the results of its own investigation. That
is, Guerrero’s claims are inextricably intertwined
with the Diocese’s decision to include his name on the
list— which it published on its website as an ordinary
means of communication to its membership—at the
culmination of its investigation into its clergy. The
Diocese’s public statements about the list neither
mention nor reference Guerrero’s name. Thus, the
list’s publication, and Guerrero’s suit, cannot be
severed from the process that led to its creation.
The dissent disagrees, arguing that the
underlying investigation is immaterial because
Guerrero’s suit complains only about the Diocese’s
including his name on the list published to its website.
Post at ___. However, the reason Guerrero appeared
on the list is that the Diocese conformed to the
Charter, an internal directive to investigate its clergy.
The Diocese’s compliance with its directive, and the
results of that investigation, is a predicate to
Guerrero’s suit. Exercising jurisdiction over it would



23a

necessarily “encroach[] on the church’s ability to
manage its internal affairs.” Westbrook, 231 S.W.3d
at 395. Thus, even assuming the dissent is correct
that a court could apply neutral principles to
interpret a Canonical term, post at ___, doing so
would invade a religious institution’s “autonomy
with respect to internal management decisions that
are essential to the institution’s central mission,”
Our Lady of Guadalupe Sch., 140 S. Ct. at 2060.
Here, exercising jurisdiction would invade the
Diocese’s internal management decision to
investigate its clergy consistent with its own norms
and policies.
Moreover, that the Diocese made public
statements about its new policy and a statement at
the completion of its investigation does not
necessarily foreclose ecclesiastical protection. See
Patton, 212 S.W.3d at 555 n.12 (noting that scope of
publication is “not a bright-line rule”). The doctrine
allows a religious institution to engage freely in
ecclesiastical discussions with more than just its
members. See Bryce v. Episcopal Church in the
Diocese of Colo., 289 F.3d 648, 658 (10th Cir. 2002). It
extends to publications that relate to a religious
group’s right to shape its own faith and mission.
Hosanna-Tabor, 565 U.S. at 188. The Diocese, in
exercising its right to shape its own faith and mission,
disclosed to the public its reforms to handling sexualabuse allegations within the church. Such discussion
of changes in church policy, which the Diocese
explains were rooted in broader church governance
decisions, do not revoke ecclesiastical protection. See,
e.g., Whole Woman’s Health, 896 F.3d at 374 (“[T]he
importance of securing religious groups’ institutional

24a

autonomy, while allowing them to enter the public
square, cannot be understated . . . .”); see also
Hosanna-Tabor, 565 U.S. at 201 (Alito, J.,
concurring) (“A religious body’s control over such
‘employees’ is an essential component of its freedom
to speak in its own voice, both to its own members
and to the outside world.”). Curtailing First
Amendment protections when a church exercises its
right to shape its own faith and mission threatens to
entangle the courts in a religious dispute.3 See
Pleasant Glade Assembly of God v. Schubert, 264
S.W.3d 1, 12 (Tex. 2008) (“Particularly, when the
adherent’s claim, as here, involves only intangible
emotional damages allegedly caused by a sincerely
held religious belief, courts must carefully scrutinize
the circumstances so as not to become entangled in
a religious dispute.”). Such entanglement here could
allow a court to secularize a church term—who may
constitute a “minor” under Canon Law—and
jeopardize a church’s ability to establish its own
rules and regulations for adequately investigating
its clergy. See Brown, 116 S.W. at 363. In other
words, allowing Guerrero’s suit to move forward
would threaten the Diocese with civil tort liability
for acting in accord with its directive to investigate
its clergy or for not conducting that investigation
consistent with judicial standards, thereby
depriving the Diocese of its “right to construe and
administer church laws.” Westbrook, 231 S.W.3d at
400 (collecting authorities).
IV.

Conclusion

Religious groups have a First Amendment right to
decide for themselves—free from court interference—



25a

matters of ecclesiastical governance as well as faith
and doctrine. Id. at 397, 405. Exercising jurisdiction
over the underlying case will not only require the trial
court to evaluate whether the Lubbock Diocese
properly applied Canon Law but will also encroach on
the Diocese’s decision to investigate its clergy
consistent with its internal policies. Accordingly, we
conditionally3 grant the Lubbock Diocese’s petition for
writ of mandamus, vacate the trial court’s order
denying the Diocese’s plea to the jurisdiction, and
direct the trial court to dismiss the underlying case
for want of jurisdiction. Our writ will issue only if the
trial court does not comply.

_________________________
John P. Devine
Justice
OPINION DELIVERED: June 11, 2021

Of course, First Amendment rights are not unlimited. See
District of Columbia v. Heller, 554 U.S. 570, 595 (2008) (citing
United States v. Williams, 553 U.S. 285 (2008)). We have
previously stated that the “[f]reedom to believe may be absolute,
but freedom of conduct is not, and conduct even under religious
guise remains subject to regulation for the protection of society.”
Pleasant Glade Assembly of God v. Schubert, 264 S.W.3d 1, 12
(Tex. 2008) (collecting cases); see Cantwell v. Connecticut, 310
U.S. 296, 304 (1941) (“In every case the power to regulate must
be so exercised as not, in attaining a permissible end, unduly to
infringe the protected freedom.”). The Diocese’s investigation
and subsequent statements about its investigation, however, do
not cross this line.


3



26a

IN THE SUPREME COURT OF TEXAS
NO. 20-0005
DIOCESE OF LUBBOCK, Petitioner
v.
JESUS GUERRERO, Respondent
ON PETITION FOR REVIEW FROM THE
COURT OF APPEALS FOR THE SEVENTH
DISTRICT OF TEXAS
PER CURIAM
This interlocutory appeal is from a trial court
order denying a motion to dismiss under the Texas
Citizens Participation Act (TCPA). See TEX. CIV.
PRAC. & REM CODE § 27.003. The court of appeals
considered the appeal as a companion to a mandamus
petition also filed by the petitioner, the Diocese of
Lubbock. Both relate to the Diocese’s defense to
claims of defamation and intentional infliction of
emotional district asserted by respondent Jesus
Guerrero, a Catholic deacon. The claims arise out of
the Diocese’s inclusion of Guerrero’s name on a list of
clergy credibly accused of sexual abuse.
In the trial court, the Diocese filed a plea to the
jurisdiction, arguing that the ecclesiastical abstention
doctrine barred Guerrero’s claims, and followed the
plea with a motion to dismiss under the TCPA. The
trial court denied both. The Diocese appeals the order
denying the motion to dismiss and sought mandamus

27a

relief from the order denying its jurisdictional plea.
The court of appeals denied the Diocese’s mandamus
petition, In re Diocese of Lubbock, 592 S.W.3d 196
(Tex. App. – Amarillo 2019, orig. proceeding), and
affirmed the trial court’s TCPA order with respect to
the defamation claim, finding “clear and specific
evidence creating a prima facie case on each element
of defamation,” Diocese of Lubbock v. Guerrero, 591
S.W.3d 244, 253 (Tex. App. – Amarillo 2019).
The Diocese petitioned for review of the court
of appeals’ judgment under the TCPA and sought
mandamus relief in this Court from the trial court’s
order denying its plea to the jurisdiction. We granted
the Diocese’s petition for review in Cause No. 20-0005
and consolidated it with the Diocese’s petition for writ
of mandamus in Cause No. 20-0127 for oral argument.
In our contemporaneously issued opinion in the
mandamus proceeding, we agree with the Diocese
that the ecclesiastical abstention doctrine deprives
the trial court of jurisdiction over Guerrero’s suit
because it is inextricably intertwined with the
Diocese’s internal directive to investigate its clergy
and would necessarily require the court to evaluate
the Diocese’s application of Canon Law. In re Diocese
of Lubbock, No. 20-0127, ____ S.W.3d ____, _____
(Tex. 2021). We accordingly direct the trial court in
that proceeding to sustain the Diocese’s plea to the
jurisdiction and dismiss the underlying case. Id. at
_____.
Inasmuch as the trial court lacks jurisdiction to
proceed in the underlying litigation, the collateral
matters under the TCPA asserted in this

28a

interlocutory appeal are moot. “If the trial court lacks
subject matter jurisdiction, the appellate court can
make no order other than reversing the judgment of
the court below and dismissing the cause.” Garland v.
Louton, 691 S.W.2d 603, 605 (Tex. 1985)(per curiam).
The trial court’s underlying interlocutory order and
the court of appeals’ judgment are accordingly
vacated, and the cause is dismissed.
OPINION DELIVERED: June 11, 2021

29a

IN THE SUPREME COURT OF TEXAS
NO. 20-0005
DIOCESE OF LUBBOCK, Petitioner
v.
JESUS GUERRERO, Respondent
MANDATE
To the Trial Court of Lubbock County,
Greetings:
Before our Supreme Court on June 11, 2021,
the Cause, upon petition for review, to revise or
reverse your Judgment.
No. 20-0005 in the Supreme Court of Texas
No. 07-19-00280-CV in the Seventh Court of
Appeals
No. 2019-534,677 in the 237th District Court of
Lubbock County, Texas, was determined; and
therein our said Supreme Court entered its judgment
or order in these words:
THE SUPREME COURT OF TEXAS, having
heard this cause on petition for review from the Court
of Appeals for the Seventh District, and having
considered the appellate record, briefs, and counsels’
argument, concludes that the court of appeals’
judgment should be reversed.

30a

IT IS THEREFORE ORDERED, in accordance
with the Court’s opinion, that:
1) The court of appeals’ judgment is vacated;
2) The cause is dismissed; and
3) The Diocese of Lubbock shall recover, and
Jesus Guerrero shall pay, the costs incurred in
this Court and in the court of appeals.
Copies of this judgment and the Court’s opinion
are certified to the Court of Appeals for the Seventh
District and to the 237th District Court of Lubbock
County, Texas, for observance.
Wherefore we command you to observe the
order of our said Supreme Court in this behalf, and in
all things to have recognized, obeyed, and executed.
BY ORDER OF THE SUPREME COURT OF
THE STATE OF TEXAS,
with the seal thereof annexed, at the
City of Austin, this the 16th day of July,
2021.
Blake A. Hawthorne, Clerk
s/ Blake A. Hawthorne
By Monica Zamarripa, Deputy Clerk

31a

IN THE SUPREME COURT OF TEXAS
NO. 20-0005
DIOCESE OF LUBBOCK, Petitioner
v.
JESUS GUERRERO, Respondent
ON PETITION FOR REVIEW FROM THE
COURT OF APPEALS FOR THE SEVENTH
DISTRICT OF TEXAS
JUDGMENT
THE SUPREME COURT OF TEXAS, having
heard this cause on petition for review from the Court
of Appeals for the Seventh District, and having
considered the appellate record, briefs, and counsels’
argument, concludes that the court of appeals’
judgment should be reversed.
IT IS THEREFORE ORDERED, in accordance
with the Court’s opinion, that:
1) The court of appeals’ judgment is vacated;
2) The cause is dismissed; and
3) The Diocese of Lubbock shall recover, and
Jesus Guerrero shall pay, the costs incurred
in this Court and in the court of appeals.

32a

Copies of this judgment and the Court’s opinion
are certified to the Court of Appels for the Seventh
District and to the 237th District Court of Lubbock
County, Texas, for observance.
Opinion of the Court delivered Per Curiam.
June 11, 2021
*************

33a

IN THE SUPREME COURT OF TEXAS
NO. 20-0127
IN RE DIOCESE OF LUBBOCK, RELATOR
ON PETITION FOR WRIT OF MANDAMUS
JUSTICE BOYD, dissenting.
The Catholic Church has publicly confessed
that a “culture of abuse” existed within its
communities.1 With “sorrow and shame,” Pope
Francis personally acknowledged “the atrocities
perpetrated by consecrated persons, clerics, and all
those entrusted with the mission of watching over and
caring for those most vulnerable.”2 He also conceded
that, beyond the abuse itself, the victims’ pain “was
long ignored, kept quiet or silenced.”3
But now, the church has pledged to publicly
“condemn these atrocities and join forces in uprooting

Letter of His Holiness Pope Francis to the People of
God, THE HOLY SEE (Aug. 20, 2018),
http://www.vatican.va/content/francesco/en/letters/2018/docume
nts/papa-francesco_20180820_lettera-popolo-didio html.
1

2

Id.

Id.; cf. Heather McAdams, Holding the Catholic Church
Responsible on an International Level: The Feasibility of Taking
High-Ranking Officials to the International Criminal Court, 53
N.Y.U. J. INT’L L. & POL. 229, 230 (2020) (describing “the
Catholic Church’s history of covering up the sexual abuse of
minors committed by its clergy”).
3

34a

this culture of death.”4 It has promised to extend “an
outstretched hand” to the victims “and rescue them
from their pain.”5 And it has committed itself to a
“penitential openness that can allow [the church] to be
renewed from within.”6 Unfortunately, that
commitment to “openness” led to the filing of this
lawsuit.
Consistent
with
the
Holy
Father’s
commitment, the United States Conference of
Catholic Bishops issued a Charter for the Protection
of Children and Young People, requiring that all U.S.
Catholic Dioceses “be open and transparent in
communicating with the public about sexual abuse of
minors by clergy within the confines of respect for the
privacy and the reputation of the individuals
involved.”7 Pursuant to this directive, the Texas
Dioceses undertook to investigate all allegations of
sexual abuse of a minor by a clergy member and to
publish lists of all such persons against whom a
“credible allegation” had been made. When the
Lubbock Diocese produced its list, entitled “Names of
All Clergy with a Credible Allegation of Sexual Abuse
of a Minor,” it posted the list on its public website,

Letter of His Holiness Pope Francis to the People of God,
supra note 1.

ϱ
Id.

ϲ
Id.

7 Charter for the Protection of Children and Young
People, U.S. CONF. OF CATH. BISHOPS (June 2018),
https://www.usccb.org/issues-and-action/child-andyouth-protection/upload/Charter-for-the-Protection-of-Childrenand-Young-People-2018-final.pdf.
4

35a

issued a press release saying the list was issued as
part of the church’s effort to “protect children from
sexual abuse,” and provided an interview about the
list to a Lubbock news station in which the Diocese’s
chancellor assured the public that the church is safe
“for children.” [Emphases added.]
Jesus Guerrero, an ordained deacon, asked the
Lubbock Diocese to remove his name from the list.
When the Diocese refused, Guerrero filed this suit for
defamation, contending that he has never been
accused—credibly or otherwise—of sexually abusing a
child. The Diocese does not disagree, but it asserts
that, under Catholic Canon Law, the word “minor” is
defined to include adults “deemed vulnerable due to a
health or mental condition.” According to the Diocese,
Guerrero was accused—many years before the Diocese
published the list—of engaging in “sexual misconduct”
with an adult woman who had a history of mental and
emotional illness, who “may not have been on her
medications at the time of the various instances which
were witnessed.” The Diocese, however, did not
provide its unique definition of the term “minor” when
it published its list and other statements referring to
abuse of “children” to the general public.
Under these circumstances, the Court’s desire
to protect the Diocese against anything that might
inhibit
its
commitment
to
“openness”
is
understandable. But the rule the Court announces
today—which no other court has ever announced
before—is as unwise as it is unsupported by the
constitutional provisions on which the Court relies.
The First Amendment indisputably prohibits courts
from interfering with a religious organization’s

36a

internal activities and operations, including
investigations and disciplinary actions involving its
clergy and members. But courts throughout the
country, both federal and state (including several
state supreme courts) have consistently agreed that
the First Amendment does not prohibit courts from
hearing a defamation claim against a religious
organization or official when (1) the claim is based on
statements made to the general public and (2) the
courts can resolve the claim on strictly secular
grounds. In rejecting this holding, the Court refuses
to even address this national consensus in the
caselaw, much less identify any court that has ever
held otherwise.
Unlike the federal Constitution, the Texas
Constitution expressly guarantees not only the
freedom of speech, but also that the law will hold
people responsible “for the abuse of that privilege.”8
Our courts must stand as the vanguard of enforcement
for both those guarantees. However desirable the
outcome of today’s decision may be in this particular
case, the precedential effect of the Court’s holding will
apply to every group that asserts a religious identity
and will immunize defamatory statements publicized
under far less sympathetic circumstances. And after
today’s decision, the First Amendment now means
something different in Texas than it means
throughout the rest of the country. Of course, that
cannot be correct. Because I agree with all the courts
around the country that have held that the First
Amendment does not prohibit courts from hearing a
defamation claim against a religious organization

TEX. CONST. art. I § 8.

ϴ

37a

when the claim involves statements made to the
general public and courts can resolve the claim on
strictly secular grounds, I respectfully dissent.
I.
The Ecclesiastical-Abstention Doctrine
The First Amendment to the United States
Constitution famously prohibits Congress from making
any “law respecting an establishment of religion, or
prohibiting the free exercise thereof.” U.S. CONST.
amend. I. The Fourteenth Amendment imposes this
restriction on the states. Presbyterian Church in U.S. v.
Mary Elizabeth Blue Hull Mem’l Presbyterian Church,
393 U.S. 440, 441 (1969). “The free exercise of religion
means, first and foremost, the right to believe and profess
whatever religious doctrine one desires.” Emp. Div., Dep’t
of Hum. Res. of Or. v. Smith, 494 U.S. 872, 877 (1990).
The provision prohibiting the establishment of religion
means, among other things, that the government may
not interfere with a religious organization’s “ecclesiastical
decisions.”
Hosanna-Tabor
Evangelical
Lutheran Church & Sch. v. E.E.O.C., 565 U.S. 171,
189 (2012).
As a result, courts may not decide
“quintessentially religious controversies,” Serbian E.
Orthodox Diocese for U.S. & Can. v. Milivojevich, 426
U.S. 696, 720 (1976), or “cases of ecclesiastical
cognizance,” Watson v. Jones, 80 U.S. 679, 729 (1871).
Because secular law “knows no heresy, and is
committed to the support of no dogma, the
establishment of no sect,” courts must abstain from
hearing a claim that is “strictly and purely
ecclesiastical in its character.” Id. at 728, 733. This

38a

includes claims that require courts to evaluate and
assess “the faith and mission of the church,” HosannaTabor, 565 U.S. at 190, the “centrality of particular
beliefs or practices to a faith,” Hernandez v. Comm’r,
490 U.S. 680, 699 (1989), matters of “religious law and
polity,” Milivojevich, 426 U.S. at 709, “religious
doctrine and practice,” Mary Elizabeth Blue Hull, 393
U.S. at 449, matters of “faith and doctrine,” Kedroff v.
St. Nicholas Cathedral of Russian Orthodox Church in
N. Am., 344 U.S. 94, 116 (1952), or “questions of
discipline, or of faith, or ecclesiastical rule, custom, or
law,” Watson, 80 U.S. at 727.
For example, courts cannot interfere with a
religious group’s choices regarding its “internal
governance,” including its decision “to fire one of its
ministers.” Hosanna-Tabor, 565 U.S. at 181, 188.
Courts cannot resolve “church property disputes on the
basis of religious doctrine and practice.” Jones v. Wolf,
443 U.S. 595, 602 (1979). They cannot hear “church
disputes
over
church
polity
and
church
administration,” or claims involving a religious
organization’s “internal discipline and government.”
Milivojevich, 426 U.S. at 710, 724. Nor can they decide
whether a church’s actions “depart substantially from
prior doctrine,” Mary Elizabeth Blue Hull, 393 U.S. at
450, resolve a “theological controversy,” or
determine the “conformity of the members of the
church to the standard of morals required of them,”
Watson, 80 U.S. at 734.9

 Courts have often treated this “ecclesiastical

ϵ

abstention” or “religious autonomy” doctrine as a
constitutional bar to the courts’ jurisdiction, as the Court does in
this case today. Ante at. In Hosanna-Tabor, however, the United

39a


States Supreme Court explained that the “ministerial exception”
it recognized in that case operates “not [as] a jurisdictional bar”
that affects the court’s “power to hear [the] case,” but “as an
affirmative defense to an otherwise cognizable claim.” 565 U.S. at
195 n.4 (quoting Morrison v. Nat’l Austl. Bank Ltd., 561 U.S. 247,
254 (2010)). Nevertheless, this Court holds today that the bar
remains jurisdictional, attempting to distinguish Hosanna-Tabor
on the ground that the “ministerial exception” is “independent but
related to” the ecclesiastical-abstention doctrine. Ante at n.1.
The Supreme Court’s decisions do not support that
distinction. The Supreme Court used the “ministerial exception”
label in Hosanna-Tabor to refer to a specific type of ecclesiastical
claim the First Amendment prevents courts from addressing—
namely, a “minister’s” claim that a religious organization for
which the minister worked violated employment-discrimination
statutes. Hosanna-Tabor, 565 U.S. at 176–77, 188. As JUSTICE
THOMAS later noted, the label is actually a “misnomer” because
“[t]he First Amendment’s protection of religious organizations’
employment decisions” sometimes extends “to the laity” as well
as “to members of the clergy.” Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S. Ct. 2049, 2069 n.1 (2020) (THOMAS,
J., concurring). In any event, the Court recognized the
“ministerial exception” in Hosanna-Tabor both because the First
Amendment’s Free Exercise Clause “precludes application of
[employment-discrimination statutes] to claims concerning the
employment relationship between a religious institution and its
ministers,” and because the First Amendment’s Establishment
Clause “prohibits government involvement in such ecclesiastical
decisions.” Hosanna-Tabor, 565 U.S. at 188–89 (emphasis
added). In other words, the Supreme Court’s decision in
Hosanna-Tabor was based on the same constitutional provisions
and the same application of those provisions as all its other
decisions applying the ecclesiastical-abstention (or religiousautonomy) doctrine.
The Supreme Court confirmed this in Our Lady of
Guadalupe, explaining that the “constitutional foundation for [its]
holding [in Hosanna-Tabor] was the general principle of church
autonomy to which we have already referred: independence in
matters of faith and doctrine and in closely linked matters of

40a

But the First Amendment’s bar against courts
hearing ecclesiastical disputes is not without its
limits. Just as the Free Exercise Clause does not
excuse
religiously
motivated
citizens
from
“compliance with an otherwise valid law prohibiting

internal government.” Our Lady of Guadalupe, 140 S. Ct. at 2061
(emphasis added). It further emphasized that the precedent on
which the Court relied in Hosanna-Tabor “drew on this broad
principle, and none was exclusively concerned with the selection
or supervision of clergy.” Id. Applying this broad “understanding”
of the First Amendment, the Court held that the defendants in
Our Lady of Guadalupe qualified for the same “exemption” the
Court had recognized in Hosanna-Tabor. Id. at 2066.
This Court’s suggestion today that the Supreme Court in
Our Lady of Guadalupe somehow backed off of its jurisdictional
analysis in Hosanna-Tabor, see ante at ___ n.33, is simply
unsupported by either of those decisions. Consistent with its
holding in Hosanna-Tabor, the Supreme Court never mentioned
“jurisdiction” in Our Lady of Guadalupe. Instead of dismissing
the claims in that case for want of jurisdiction, it reversed the
appellate courts’ decisions (which themselves had reversed the
district courts’ summary-judgment orders) and remanded the
cases to those courts for “proceedings consistent with this
opinion.” Our Lady of Guadalupe, 140 S. Ct. at 2069. In other
words, it acted consistent with its holding in Hosanna-Tabor
that the ecclesiastical-abstention doctrine is “not a jurisdictional
bar,” but “an affirmative defense to an otherwise cognizable
claim.” Hosanna-Tabor, 565 U.S. at 195 n.4.
This case comes to us as a petition for writ of mandamus,
urging us to order the trial court to grant the Lubbock Diocese’s
plea to the jurisdiction. The Court grants that relief, see ante at
, even though the Supreme Court held in Hosanna-Tabor and
confirmed in Our Lady of Guadalupe that the First
Amendment’s prohibition against courts hearing claims
involving ecclesiastical issues establishes an affirmative
defense, not a jurisdictional bar. For this additional reason, I
cannot join the Court’s opinion or disposition in this case.


41a

conduct that the State is free to regulate,” Smith, 494
U.S. at 879, the Establishment Clause does not
prevent courts from deciding disputes involving
religious organizations by applying “neutral
principles of law,” Jones, 443 U.S. at 604; Mary
Elizabeth Blue Hull, 393 U.S. at 449.
II.
Texas Precedent
This Court has addressed and applied the
ecclesiastical-abstention doctrine in a handful of cases.
Initially, we held in a pair of decisions that the First
Amendment prevented the courts from hearing tort
claims against a religious organization when the
resolution of the claims would require the courts to
interfere with internal religious requirements and
conduct. In Westbrook v. Penley, 231 S.W.3d 389 (Tex.
2007), a former church member sued the church’s
pastor for negligence, breach of fiduciary duty, and
intentional infliction of emotional distress10 after the
pastor disclosed the member’s confession of an extramarital affair to the church’s elders, who—with the
pastor’s aid—reported the affair in a letter to the
church’s members11 and called on the members to
“break fellowship” with her. Id. at 393–94. The former
member argued that because the pastor was also a

The former member “originally asserted but later
abandoned” a claim for defamation. Westbrook, 231 S.W.3d at
396.
10

This “letter admonished the congregation to treat the
matter as a ‘members-only issue, not to be shared with those
outside [the congregation].’” Id. at 393 (emphasis added).

11

42a

state-licensed professional counselor and she disclosed
the affair to him during a “secular” counseling session,
the courts could hear and decide her claims based on
neutral principles without deciding ecclesiastical
issues. Id. at 396, 399. We disagreed, holding that
even assuming the counseling session was “purely
secular in nature,” the pastor’s state-imposed duty of
confidentiality conflicted with his church-imposed
duty to disclose her conduct to the elders and other
church members. Id. at 392. Although we agreed “that
the First Amendment does not necessarily bar all
claims that may touch upon religious conduct,” id. at
396, we concluded that “parsing” the pastor’s
conflicting roles and duties “would unconstitutionally
entangle the court in matters of church governance
and impinge on the core religious function of church
discipline,” id. at 391–92.
The following year, we held in Pleasant Glade
Assembly of God v. Schubert, 264 S.W.3d 1 (Tex. 2008),
that the courts could not hear a teenage church
member’s claims that the church had forcibly
restrained her while “laying hands” on her and praying
over her during a “spiritually charged” youth-group
gathering. Id. at 3, 8. The teenager and her parents
sued the church, its pastors, and some members,
seeking damages for “mental, emotional and
psychological” injuries. Id. at 5.12 We held that the
claims were not cognizable because, “[a]lthough the
Free Exercise Clause does not categorically insulate

 The plaintiffs asserted claims for negligence, gross
negligence, professional negligence, intentional infliction of
emotional distress, false imprisonment, assault, battery, loss of
consortium, and child abuse. 264 S.W.3d at 5.
ϭϮ

43a

religious conduct from judicial scrutiny, it prohibits
courts from deciding issues of religious doctrine.” Id. at
11. Because the resolution of the claims would require
inquiry into “church beliefs on demonic possession,” we
concluded that “the imposition of tort liability for
engaging in religious activity to which the church
members adhere would have an unconstitutional
‘chilling effect’ by compelling the church to abandon
core principles of its religious beliefs.” Id. at 10–11.
More recently, we held in a pair of cases that
the First Amendment does not prevent courts from
hearing and resolving disputes over ownership of
church property when they can resolve those disputes
based on “neutral principles of law.” In Masterson v.
Diocese of Northwest Texas, 422 S.W.3d 594 (Tex.
2013), we adopted the “neutral principles” standard
for resolving church-property disputes because that
standard best balances the courts’ “constitutional
duty to decide disputes within their jurisdiction while
still respecting” the First Amendment’s limitations.
Id. at 596. We acknowledged that courts cannot
“decide questions of an ecclesiastical or inherently
religious nature, so as to those questions they must
defer to decisions of appropriate ecclesiastical
decision makers.” Id. at 605–06. But because courts
are “[duty-]bound to exercise jurisdiction vested in
them by the Texas Constitution and cannot delegate
their judicial prerogative where jurisdiction exists,”
we held that courts must “apply neutral principles of
law to non-ecclesiastical issues involving religious
entities in the same manner as they apply those
principles to other entities and issues.” Id. at 606.

44a

Applying Masterson, we held most recently
that the ecclesiastical-abstention doctrine did not
prohibit courts from deciding whether the Episcopal
Diocese of Fort Worth or the national Episcopal
Church from which the Diocese had split owned
church property within the Fort Worth area.
Episcopal Diocese of Fort Worth v. Episcopal Church,
602 S.W.3d 417, 420 (Tex. 2020), cert. denied sub nom.
All Saints’ Episcopal Church (Fort Worth) v.
Episcopal Diocese of Fort Worth, No. 20-534, 2021 WL
666391 (U.S. Feb. 22, 2021), and cert. denied, No. 20536, 2021 WL 666393 (U.S. Feb. 22, 2021). While
acknowledging that courts cannot make “ecclesiastical
determinations” or “resolve disputes turning on tenets
of faith,” and thus could not decide “which faction is
the true diocese loyal to the church and which
congregants are in good standing,” id. at 432–33, 435,
we concluded that courts could resolve the propertyownership issue because, by “applying neutral
principles to the organizational documents, the
question of property ownership is not entwined with or
settled by [ecclesiastical] determinations.” Id. at 433.
III.
Defamation Claims
Neither this Court nor the United States
Supreme Court has addressed whether or when the
ecclesiastical-abstention
doctrine
applies
to
defamation claims. See Hosanna-Tabor, 565 U.S. at
196 (expressing “no view on whether” the doctrine
bars actions alleging “tortious conduct by . . . religious
employers”). Many other courts have, however, and
they have consistently agreed that the doctrine does
not bar defamation claims that (1) are based on

45a

statements made to the general public, outside the
religious organization itself, and (2) can be resolved
by applying neutral principles, even when the
statements were published by a church, its clergy, or
another member of a religious organization.
A. Statements made to the general public
When deciding that the First Amendment bars
courts from hearing a defamation claim against a
religious organization, numerous courts—including
two state supreme courts— specifically reasoned that
the bar applied because the statements were made
only internally, solely to the organization’s leaders or
members. In Hiles v. Episcopal Diocese of
Massachusetts, 773 N.E.2d 929 (Mass. 2002), for
example,
the
Supreme
Judicial
Court
of
Massachusetts held that an Episcopalian priest could
not sue a parishioner for defamation based on a letter
the parishioner sent to the church’s bishop, in which
she confessed to having an extended sexual
relationship with the priest, in part because the letter
“was published solely in a canonical context” and used
solely “to invoke the Church’s internal disciplinary
procedures.” Id. at 936. The court specifically noted
that its analysis was “predicated on the fact that the
only defamatory publication allegedly made by [the
parishioner] was made to the Church itself, within its
internal disciplinary procedure,” and it explained that
the “absolute First Amendment protection for
statements made by a Church member in an internal
church disciplinary proceeding would not apply to
statements made or repeated outside that context.”
Id. at 937 n.12 (emphasis added).

46a

Similarly, in Pfeil v. St. Matthews Evangelical
Lutheran Church of the Unaltered Augsburg
Confession of Worthington, 877 N.W.2d 528 (Minn.
2016), the Minnesota Supreme Court dismissed two
excommunicated parishioners’ defamation suit
against their former church and pastors because “[a]ll
of the statements on which the [parishioners] base
their claims occurred during church disciplinary
proceedings, and [the First Amendment] prohibits
civil courts from inquiring into any statements made
during the course of a church disciplinary
proceeding.” Id. at 536. Like the Massachusetts court
in Hiles, the Minnesota court specifically noted that it
would “be troubled . . . if the statements were
disseminated to individuals outside of the religious
organization.” Id. at 540 (emphasis added). But
because the ministers “only disseminated those
statements to members of the congregation,” the court
held that the First Amendment barred the
defamation claim. Id. at 541. Numerous other courts,
including our own state’s courts of appeals, have also
expressly noted, when holding that the ecclesiasticalabstention doctrine barred a defamation claim, that
the alleged defamatory statements were published
only to members of the religious organization as part
of the organization’s internal investigatory or
disciplinary process. See, e.g., Yaggie v. Ind.-Ky. Synod,
Evangical Lutheran Church in Am., 64 F.3d 664 (6th
Cir. 1995) (per curiam) (unpublished table decision)
(noting that “the alleged defamatory statements were
made in connection with the mediation process and
strictly within the confines of the church”); Hubbard v.
J Message Grp. Corp., 325 F. Supp. 3d 1198, 1219
(D.N.M. 2018) (mem. op.) (“[T]o the extent that the
allegations in the Complaint suggest that the allegedly

47a

defamatory statements were published exclusively to
the [religious organization’s] membership, this fact
strengthens the Court’s conclusion that Plaintiff’s
claims, having occurred in the context of an
ecclesiastical dispute with [the religious organization],
are barred by the First Amendment.”); Jennison v.
Prasifka, 391 S.W.3d 660, 667–68 (Tex. App.—Dallas
2013, no pet.) (noting that the “only defamatory
statements allegedly made by [the defendant] were
made to the church itself in connection with the
church’s disciplinary process,” and plaintiff made “no
allegation the allegedly defamatory statements were
made in any other forum”); Stepek v. Doe, 910 N.E.2d
655, 667 (Ill. App. Ct. 2009) (noting that defamation
claim was based on statements that “were published
solely within the Catholic Church’s internal
disciplinary proceedings”); Patton v. Jones, 212 S.W.3d
541, 555 (Tex. App.—Austin 2006, pet. denied)
(holding First Amendment barred minister’s
defamation claim in part because “the alleged
‘publication’ [was] confined within the church”); Heard
v. Johnson, 810 A.2d 871, 885 (D.C. 2002) (holding
ecclesiastical-abstention doctrine “extend[s] to
defamation claims, when: (1) such a claim flows
entirely from an employment dispute between a
church and its pastor so that consideration of the claim
in isolation from the church’s decision as to the pastor
is not practical, (2) the alleged ‘publication’ is confined
within the church, and (3) there are no unusual or
egregious
circumstances”)
(emphasis
added);
Schoenhals v. Mains, 504 N.W.2d 233, 236 (Minn. Ct.
App. 1993) (“[W]e believe that the fact that the letter
was disseminated only to other members of the Church
strengthens the conclusion that Mains’ statements
involved and were limited to Church discipline.”).

48a

Under this same reasoning, however,
numerous other courts have held that the First
Amendment does not prohibit courts from hearing a
defamation claim based on statements communicated
beyond the religious organization to members of the
public. In Kliebenstein v. Iowa Conference of United
Methodist Church, 663 N.W.2d 404 (Iowa 2003), for
example, the Iowa Supreme Court held that the First
Amendment did not bar a church member’s
defamation claim based on a letter that was “mailed
not only to members of the congregation but also to
other persons living in the Shell Rock community.” Id.
at 405. The court observed that courts could not hear
the claim “had the matter been divulged solely to the
members of” the church, but “if publication solely to
church members justifies ecclesiastical status for
otherwise defamatory communications, proof of
publication to non-church members arguably
supports the opposite conclusion.” Id. at 406–07.
Similarly, in Turner v. Church of Jesus Christ
of Latter-Day Saints, 18 S.W.3d 877 (Tex. App.—
Dallas 2000, pet. denied), a decision this Court
declined to review, the Dallas Court of Appeals held
that the First Amendment did not bar a church
member’s defamation claim arising from the church’s
disclosure of information regarding his mental
condition outside the church, including to his
grandparents. Id. at 896. The court explained that the
church’s external disclosure of the information did not
concern “internal policies of the Church or matters of
faith or ecclesiastical doctrine,” and the court’s
resolution of the claim based on that external
disclosure would not “actively involve the government

49a

in the Church’s religious activities or excessively
entangle the government with religion.” Id.
And in Lipscombe v. Crudup, 888 A.2d 1171
(D.C. 2005), the D.C. court of appeals held that the
First Amendment did not bar a church member’s
defamation claim against the church’s pastor, in part
because the member’s allegation “that the statement
was made ‘to the public in an open meeting’
sufficiently alleged that others besides church
members were present,” and his affidavit “asserted
explicitly that ‘[t]he public gathering was not part of
any church service and members from the public,
including accountants, heard the Statement.” Id. at
1173 & n.2.
Numerous other courts, including Texas courts
of appeals, have adopted this same reasoning. See, e.g.,
Hadnot v. Shaw, 826 P.2d 978, 985 (Okla. 1992) (noting
that statements contained in letter were not
defamatory, even assuming “the lay leader
communicated the letters’ contents outside the
Church”); Kelly v. St. Luke Cmty. United Methodist
Church, No. 05-16-01171-CV, 2018 WL 654907, at *1
(Tex. App.—Dallas, Feb. 1, 2018, pet. denied) (mem.
op.) (holding ecclesiastical-abstention doctrine did not
bar defamation claim “respecting statements allegedly
published to persons outside the church”); Ausley v.
Shaw, 193 S.W.3d 892, 896 (Tenn. Ct. App. 2005)
(holding First Amendment did not bar minister’s
slander claim because statements “were made in the
presence of Church members, local law enforcement,
and members of the surrounding community”).

50a

Here, Guerrero alleges—and the Lubbock
Diocese does not dispute—that the Diocese publicized
the list that included his name among those credibly
accused of sexually abusing “minors” (along with
statements referring to the safety of “children”) not
merely to and within the church, but to the general
public through the church’s website, a press release,
and an interview with local media. By choosing to
broadcast the statements beyond the church and
involve the general public in the church’s disciplinary
procedures, the Diocese altered the nature of the
constitutional concerns. See, e.g., Pleasant Glade
Assembly of God, 264 S.W.3d at 12 (noting that
“religious practices that might offend the rights or
sensibilities of a non-believer outside the church are
entitled to greater latitude when applied to an
adherent within the church”). At that point, the
church’s conduct was no longer “strictly and purely
ecclesiastical in its character,” Watson, 80 U.S. at 733,
and Guerrero’s complaint became more than a
“quintessentially religious controvers[y]” involving
only the church’s “internal discipline and
government,” Milivojevich, 426 U.S. at 720, 724
(emphasis added).
The Diocese’s assertion that its religious
teachings required it to publicly disclose the list in
compliance with Pope Francis’s commitment to
“openness” does not alter this conclusion. Nor does the
Court’s assertion that Guerrero’s claim is
“inextricably intertwined” with the church’s directive
that the Diocese internally investigate its clergy. Ante
at __. The Court asserts that the church’s decision to
publish a list of those credibly accused of abusing
minors cannot be severed from its decision to

51a

investigate its clergy, ante at __, but Guerrero’s
defamation claim does not complain about—and a
jury would not be required to evaluate—either of
those actions. The Diocese investigated allegations
against Guerrero years before the church published
the list, and Guerrero has never complained about the
church’s decision to conduct that investigation.
Guerrero’s defamation claim does not challenge that
investigation or the Diocese’s decision to publicize the
list; he complains of the Diocese’s inclusion of his
name on the list, which he asserts falsely defames him
by communicating to the public that he had been
credibly accused of sexually abusing a “minor.”
The Diocese’s—indeed, the entire church’s—
commitment to public transparency as it seeks to leave
its “atrocities” behind is both understandable and
laudable. But the issue here is not whether the Diocese
should have investigated Guerrero, internally
disciplined him, or even published a list of those who
had been accused of sexual misconduct. Nor does
Guerrero complain that the Diocese concluded
internally that he had been accused of sexually
abusing a “minor,” as Canon Law defines that term.
His complaint is that the Diocese should not have
broadcast to the general public an allegation that he
had been credibly accused of sexually abusing a
“minor.”
Exercising jurisdiction over Guerrero’s claim
would not second-guess or threaten the church’s (or
any other religious organization’s) decision to
investigate its clergy, finding of misconduct by a clergy
member, or imposition of internal disciplinary
measures against a member within the church’s

52a

religious activities. What it would threaten is a
religious organization’s ability to make false and
defamatory statements about its clergy or members to
the general public, outside of the organization’s
internal operations. The issue here is simply whether
the First Amendment prohibits courts from hearing a
claim that the information distributed to the general
public in and with the Diocese’s list falsely defamed
Guerrero. Like all the other courts around the
country, I conclude it does not. “It is one thing to say
that churches must be free of governmental
interference to conduct matters of internal discipline
and organization, even when those matters touch
upon the reputations of those effected.” Hayden v.
Schulte, 701 So. 2d 1354, 1356–57 (La. Ct. App. 1997)
(emphasis added). But it is “quite another to say that
churches have the unfettered right to make
unsubstantiated statements of an essentially secular
nature to the media destructive of a priest’s
character.” Id. at 1357. By extending its internal
disciplinary procedures and beliefs into the public
arena, the Diocese subjected itself to the public laws
that govern that realm.13

The Court suggests in passing that the First
Amendment bars this suit because the Free Exercise Clause
permits a religious organization to “engage freely in
ecclesiastical discussions with more than just its members.” Ante
at ___ (citing Bryce v. Episcopal Church in the Diocese of Colo.,
289 F.3d 648, 658 (10th Cir. 2002)). According to the Court, a
religious organization’s decision to “enter the public square” does
not “revoke ecclesiastical protection.” Ante at ___ (quoting Whole
Woman’s Health v. Smith, 896 F.3d 362, 372 (5th Cir. 2018)).
This argument misrepresents the decisions in both those cases.
In Bryce, a minister and her same-sex partner alleged that the
minister’s church’s leaders and members made “sexually
harassing remarks” in letters between the senior minister and
13

53a


“other church leaders” and “at a series of church meetings.” 289
F.3d at 657. Applying the ecclesiastical-abstention doctrine, the
court held that the First Amendment barred the minister’s and
her partner’s claims because the letters “discussed an internal
church personnel matter and the doctrinal reasons for [the]
proposed personnel decision,” and the church meetings
“facilitated religious communication and religious dialogue
between [the senior] minister and his parishioners.” Id. at 658.
In stating that the church could “engage freely in ecclesiastical
discussions with members and non-members,” the court was
specifically referring to the fact that the minister’s partner, who
was not a member of the church, was present at the meetings.
Id. The court concluded that the First Amendment also barred
her claims because she “voluntarily attended” the meetings and
“voluntarily became part of [the church’s] internal dialogue on
homosexuality and [the minister’s] employment.” Id. Bryce did
not involve a church’s broadcast of allegedly defamatory
statements to the general public or to “non-members” who had
not voluntarily chosen to participate in a church’s internal
doctrinal discussions.
In Whole Woman’s Health, the plaintiff, who sued to
challenge a state statute and regulations that imposed
restrictions on the disposal of fetal remains, sought through a
third-party discovery subpoena to force the Texas Conference of
Catholic Bishops (a non-party) to disclose its internal
communications regarding public testimony it provided in
support of the restrictions. 896 F.3d at 365–66. The court
quashed the subpoena, holding that by “engag[ing] in activity in
the public square,” the Conference did not forfeit the First
Amendment’s protection of the Conference’s “inner workings”
and “internal communications.” Id. at 372. The court relied not
on the First Amendment’s religion clauses or the ecclesiasticalabstention doctrine, but on the clause that protects the “freedom
to associate,” which protects the internal deliberations not just
of religious organizations but of “citizens’ groups” and all other
organizations that participate in the public square. Id. Neither
Bryce nor Whole Woman’s Health held—or even discussed
whether—a religious organization’s right to engage in the public
arena gives it the right to falsely defame others within that
arena. See id.

54a

B. Neutral principles
In addition to barring court intrusions into a
church’s “internal” operations and proceedings, the
First Amendment precludes judicial inquiries into a
religious
organization’s
“particular
beliefs,”
Hernandez, 490 U.S. at 699, matters of “religious
law,” Milivojevich, 426 U.S. at 709, and issues of
“religious doctrine,” Mary Elizabeth Blue Hull, 393
U.S. at 449. “The free exercise of religion means, first
and foremost, the right to believe and profess
whatever religious doctrine one desires,” Smith, 494
U.S. at 877, and courts have no business evaluating
the soundness of a church’s doctrinal teaching or
whether one has conformed to or strayed from those
teachings, Mary Elizabeth Blue Hull, 393 U.S. at 450;
Watson, 80 U.S. at 733–34.
Because of this, courts have held that the First
Amendment bars a defamation claim when a
statement’s defamatory nature or its truth or falsity
depends upon the interpretation and application of
religious doctrine and teachings. In O’Connor v.
Diocese of Honolulu, 885 P.2d 361 (Haw. 1994), for
example, a member of the Catholic Church who
published a newspaper that was critical of the local
Diocese and Bishop sued them both after the church
excommunicated him, asserting that they defamed
him by publicizing allegations that he had committed
“‘criminal penal ecclesiastical’ violations,” created a
“schism,” misrepresented the Catholic faith “against
the warnings of the Holy See,” was a “fanatic[]” who
“came from a neolithic mind frame,” was disloyal to



55a

the Pope, and had “caused others to suffer the loss of
their immortal souls.” Id. at 367– 68. The Hawaii
Supreme Court held that the First Amendment barred
courts from hearing these claims because, “to
determine the truth or falsity of the statements, a
state court would have to inquire into church
teachings and doctrine” and determine “doctrinal
correctness” by “analyzing church law.” Id. at 368.
Other courts have reached the same conclusion
when faced with similar circumstances that required
them to evaluate religious and doctrinal issues to
resolve a defamation claim. See, e.g., Pfeil, 877
N.W.2d at 538 (observing that statements “cannot
serve as the basis for a defamation claim” when
“adjudicating the truth or falsity of the statements
would require the court to consider and interpret
matters of church doctrine”); Howard v. Covenant
Apostolic Church, Inc., 705 N.E.2d 385, 389 (Ohio Ct.
App. 1997) (holding First Amendment barred
defamation claim when its resolution would require
“biblical interpretation” and a determination of
plaintiff’s “‘conformity . . . to the standard of morals
required of’ him by his church,” matters that are
“inextricably intertwined with ecclesiastical or
religious issues over which secular courts have no
jurisdiction”); Schoenhals, 504 N.W.2d at 236 (“Since
examination of the truth of [the defendants]’
statements would require an impermissible inquiry
into Church doctrine and discipline, the district court
did not err in concluding that the defamation claim is
precluded by the First Amendment.”).
But as numerous courts—including at least six
other state supreme courts—have recognized, the First

56a

Amendment does not bar a defamation claim, even if it
arises from a religious context, when courts can resolve
the claim by applying only non-religious, neutral
principles. In Kliebenstein, for example, the Iowa
Supreme Court held that the plaintiff could pursue her
claim that a church defamed her by publicizing an
accusation that she had the “spirit of Satan,” because
the phrase “spirit of Satan” has “a secular, as well as
sectarian, meaning.” 663 N.W.2d at 405, 408. Because
the phrase has a secular meaning that a jury could
evaluate “without resort to theological reflection,” the
court concluded that the ecclesiastical-abstention
doctrine did not apply. Id. at 405, 407.
Similarly, in Bowie v. Murphy, 624 S.E.2d 74
(Va. 2006), the Virginia Supreme Court held that the
First Amendment did not bar a church deacon’s claim
that the church’s minister and other members
defamed him by publicizing statements that he had
“assaulted” another member. Id. at 76–77, 79–80.
The court reasoned that although courts could not
consider claims challenging the church’s decisions
involving its internal governance, they could
evaluate the defendants’ “statements for their
veracity and the impact they had on [the deacon’s]
reputation the same as if the statements were made
in any other, non-religious context.” Id. at 79.
And in Banks v. St. Matthew Baptist Church,
750 S.E.2d 605 (S.C. 2013), the South Carolina
Supreme Court held that the First Amendment did
not bar defamation claims asserted by a church’s
trustees against the church’s pastor, who allegedly
accused the trustees of mismanaging (and, impliedly,
stealing) the church’s property and of lying to the

57a

pastor about their conduct. Id. at 606–07. The court
reasoned that the bar would apply if, for example, the
pastor had accused the trustees of being “sinners,” of
being “not true followers of God,” or of violating church
law. Id. at 608. But because courts could determine
whether the pastor actually made the statements and
whether they harmed the trustees by applying
“neutral principles,” without requiring “any inquiry
into or resolution of religious law, principle, doctrine,
discipline, custom, or administration,” the court held
that the First Amendment did not bar the claim. Id.
at 607–08.
Numerous other courts have consistently
agreed with this reasoning. See, e.g., McRaney v. N.
Am. Mission Bd. of the S. Baptist Convention, Inc., 966
F.3d 346, 349 (5th Cir. 2020) (holding First
Amendment did not bar defamation claim brought by
executive director of church’s local mission board
against church’s national mission board, based on
alleged statements accusing director of refusing to
meet with national board’s president, because
resolution of claim would not “require the court to
address purely ecclesiastical questions”); Drevlow v.
Lutheran Church, 991 F.2d 468, 471–72 (8th Cir.
1993) (holding First Amendment did not bar
minister’s libel claim against church based on false
statements church allegedly made about minister’s
wife, because resolution of claim would not “definitely
involve the district court in an impermissible inquiry
into the Synod’s bylaws or religious beliefs”); Tubra v.
Cooke, 225 P.3d 862, 864 (Or. 2010) (holding First
Amendment did not bar pastor’s defamation claim
based on church leaders’ statements that minister
“had misappropriated church funds and was

58a

dishonest during his time as pastor”); Connor v.
Archdiocese of Phila., 975 A.2d 1084, 1107 (Pa. 2009)
(holding First Amendment did not bar parents’
defamation claim based on parochial school’s alleged
statements that child “brought a weapon to school”
because “this is not a case in which religious authority
would be directly relevant to a party’s showing on the
merits of his or her opponent’s claims”); Lipscombe,
888 A.2d at 1173–74 (holding First Amendment did
not bar defamation claim because resolution did not
require “inquiry by the court into church religious
practices or financial management”); McAdoo v. Diaz,
884 P.2d 1385, 1390–91 (Alaska 1994) (holding First
Amendment did not bar church volunteer’s
defamation claim against pastor because “a
determination of whether the statements were true
and the amount of damage to [the volunteer’s]
reputation does not present a religious question”);
Marshall v. Munro, 845 P.2d 424, 425, 428 (Alaska
1993) (holding First Amendment did not bar pastor’s
defamation claim against executive presbyter who
told other churches that pastor “was divorced, was
dishonest, was unable to perform pastoral duties due
to throat surgery, and had made an improper
advance to a [church] member,” because courts need
“only determine if the facts stated were true and if
[the presbyter] made the statements with malice,”
without deciding whether the pastor was qualified to
serve).
Here, the Court asserts that the First
Amendment bars Guerrero’s defamation claim
because the resolution of that claim “will necessarily
require the trial court to evaluate whether the
Diocese properly applied Canon Law.” Ante at __.

59a

Specifically, the Court suggests that resolution of
Guerrero’s claim will require courts to perform a
“secular
investigation
into
the
Diocese’s
understanding of the term ‘minor,’ whether the court
agrees that the woman he allegedly sexually abused
qualifies as a ‘minor’ under Canon Law, and whether
the allegations which the church possesses were
sufficiently ‘credible.’” Ante at __.
To be sure, the First Amendment bars courts
from second-guessing a church’s internal decisions
regarding the meaning of words it uses in its internal
doctrinal statements. The Catholic Church has
painstakingly struggled with the “concept of ‘minor,’”
which “has varied over the course of time.”
Vademecum on Certain Points of Procedure in
Treating Cases of Sexual Abuse of Minors Committed
by Clerics, THE HOLY SEE (July 16, 2020),
http://www.vatican.va/roman_curia/congregations/cfa
ith/documents/rc_con_cfaith_doc_20200716_vademec
um-casi-abuso_en.html. Initially, the church defined
the term to include only persons under sixteen years
of age, but it expanded the definition in 2001 to
include those under eighteen. Id. In 2010, the church
announced that any “person who habitually has the
imperfect use of reason is to be considered equivalent
to a minor.” Id. But this is to be distinguished from a
“vulnerable adult,” described as “any person in a state
of infirmity, physical or mental deficiency, or
deprivation of personal liberty which, in fact, even
occasionally limits their ability to understand or to
want or otherwise resist the offence,” who, apparently,
in some (but not all) circumstances, also qualifies as a
“minor” under the church’s laws. Id. In 2019, however,
Pope Francis referred alternatively to “a minor or a

60a

vulnerable person,” providing different definitions for
each term. Apostolic Letter Issued Motu Proprio by the
Supreme Pontiff Francis “Vos Estis Lux Mundi,” THE
HOLY SEE (May 7, 2019),
http://www.vatican.va/content/francesco/en/motu
proprio/documents/papa-francesco-motu-proprio20190507_vos-estis-lux-mundi.html
(emphasis added). And just this month, the church
revised (for the first time in over forty years) the
penal provisions of the church’s Code of Canon Law,
which now refer in the alternative to “a minor or a
person who habitually has an imperfect use of reason
or one to whom the law recognizes equal protection.”
2021 CODE c.1398, § 1(emphasis added),
https://press.vatican.va/content/salastampa/en/bollet
tino/pubblico/2021/06/01/210601b.html.
But to resolve Guerrero’s defamation claim
against the Lubbock Diocese, courts need not struggle
through the church’s internal doctrinal definitions of
the term “minor.” To recover on his claim, Guerrero
must only establish that the Diocese published a
factual statement about him that was both defamatory
and false, and that it did so “with the requisite degree
of fault.” Dall. Morning News, Inc. v. Tatum, 554
S.W.3d 614, 623 (Tex. 2018). Under neutral principles
of Texas law, a publication is false—or not
“substantially true” and thus actionable—if it “is
more damaging to the plaintiff’s reputation than a
truthful broadcast would have been.” Neely v. Wilson,
418 S.W.3d 52, 63 (Tex. 2013). And a publication is
defamatory (or libelous) if it “tends to injure a living
person’s reputation and thereby expose the person to
public hatred, contempt or ridicule, or financial injury
or to impeach any person’s honesty, integrity, virtue,

61a

or reputation.” Id. at 60 (quoting TEX. CIV. PRAC. &
REM. CODE § 73.001).
Importantly, courts must make these
determinations based not on the speaker’s intended
meaning of the words it published, but “upon how a
person of ordinary intelligence would perceive” the
statement, in light of all the surrounding
circumstances. Turner v. KTRK Television, Inc., 38
S.W.3d 103, 114 (Tex. 2000). The statement’s
meaning, in other words, “and thus whether it is false
and defamatory, depends on a reasonable person’s
perception of the entirety of a publication,” not on
what the Diocese may have intended when it used the
word “minor.” Id. at 115. To prevail, Guerrero must
prove not what the Diocese meant when it publicly
stated that Guerrero had been credibly accused of
sexually abusing a “minor,” but what the public would
have understood that statement to mean, given all the
circumstances. Noting that the Diocese’s public
statements regarding the list it publicized referred to
the safety of “children,” Guerrero alleges that the
public would have understood that Guerrero had been
credibly accused of sexually abusing a child.
Applying these neutral principles of Texas law
“obviates entirely the need for an analysis or
examination of ecclesiastical polity or doctrine.” Jones,
443 U.S. at 605. Indeed, the Catholic Church has itself
agreed that its norms governing the reporting of
suspected sexual abuse by clergy should “apply
without prejudice to the rights and obligations
established in each place by state laws.” Apostolic
Letter Issued Motu Proprio by the Supreme Pontiff

62a

Francis “Vos Estis Lux Mundi,” THE HOLY SEE
(May 7, 2019),
http://www.vatican.va/content/francesco/en/motu
proprio/documents/papa-francesco-motu-proprio20190507_vos-estis-lux-mundi.html.
Courts need not delve into ecclesiastical issues
to decide whether the Diocese’s statement that
“credible allegations” had been made that Guerrero
sexually abused a “minor” was false and defamatory.
Those determinations involve purely secular issues to
be resolved by applying neutral principles of law.
When the Oregon Supreme Court concluded
that the First Amendment did not bar a defamation
claim based on statements accusing a minister of
theft and misappropriation, it observed that such a
claim was no “more (or less)” an ecclesiastical matter
than a claim “accusing a pastor of child molestation.”
Tubra, 225 P.3d at 872. No matter how pure their
intent, religious organizations cannot immunize
themselves from court inquiries regarding such
important societal concerns merely by incorporating
those concerns into their religious doctrine. As a
Louisiana court explained:
Society does not view child molestation
as a matter of religious doctrine, as
distinguished from, say, the procedures
within the Church necessary to atone
for such a sin. Child sexual abuse is
anathema to society in general, even to
atheists. It is prohibited by secular
laws. The public has an interest in
matters of child molestation. Therefore,

63a

where child molestation is at issue, it
cannot be considered just an internal
matter of Church discipline or
administration. Child molestation is
distinguishable from those cases where
religious figures claim that their
reputations were damaged because they
were found to be poor administrators or
where their private conduct did not
comport with church standards, but the
issue was not one of the violation of
secular criminal laws.
The Church cannot appropriate a matter
with secular criminal implications by
making it simultaneously a matter of
internal Church policy and discipline.
Hayden, 701 So. 2d at 1356 (emphasis added).
IV.
Conclusion
The Court need not and does not decide today
whether the Catholic Church has responded
adequately or appropriately to the “culture of abuse”
that existed within its midst. Nor need we decide
whether the Lubbock Diocese should be held liable to
Guerrero for defamation. Our views on those issues
are irrelevant to the only issue before us: whether the
First Amendment prohibits Texas courts from hearing
Guerrero’s claim. If it does, we must dismiss the claim
and leave Guerrero and the Diocese to their mutual
pursuit of righteousness and fellowship within the

64a

tenets of their shared faith.14 But if it does not, we are
as duty-bound to hear and resolve Guerrero’s claim as
we would be to refrain from hearing it if the First
Amendment did apply. See Masterson, 422 S.W.3d at
606. Because Guerrero’s defamation claim is based on
statements the Lubbock Diocese published beyond the
church to the general public, and because courts can
resolve that claim based on neutral principles without
becoming entangled in ecclesiastical issues, I agree
with all the federal and state courts around the
country, which have consistently held that the First
Amendment does not bar the courts from hearing such
a claim. Because the Court holds otherwise, I
respectfully dissent.

_________________________
Jeffrey S. Boyd
Justice
OPINION DELIVERED: June 11, 2021


Some might contend that those shared tenets compel
both parties to resolve their dispute without the courts’
involvement regardless of whether the First Amendment bars
Guerrero’s claim. See 1 Corinthians 6:7 (“Why not rather be
wronged?”) But that ecclesiastical issue is not for this Court to
decide.
14

65a

IN THE SUPREME COURT OF TEXAS
NO. 20-0127
IN RE DIOCESE OF LUBBOCK, RELATOR
ON PETITION FOR WRIT OF MANDAMUS
JUSTICE BLACKLOCK, concurring.
“[I]n this world of sin and woe,” our judicial
system, like democracy in general, “is the worst form of
government except all those other forms that have been
tried from time to time . . . .” Winston Churchill, Speech
at the House of Commons (Nov. 11, 1947). We seek
justice in every case, but the justice dispensed by courts
is never perfect, often unsatisfying, and sometimes,
many would say, downright unjust. This will always be
so because the judgment courts provide is human
judgment. As with everything human, it is limited and
imperfect. Courts, like all of government, are necessary
in the first place because men are not angels. See THE
FEDERALIST NO. 51, at 337 (James Madison)
(Sherman F. Mittell ed., 1937). Judges are no
exception.1 The faithful among us look forward to a day

“It is fit and proper that there should be an end to litigation . .
. and to accomplish this end courts of last resort have been
established. It does not follow that the judgments of the highest
courts or judicatories are always right, for everything done by
man is at best imperfect, and liable to be erroneous, but it is the
best system which has yet been devised for the well-being of
society . . . . The utter impolicy of the civil courts attempting to
interfere in determining matters which have been passed upon
in church tribunals, arising out of ecclesiastical concerns, is
apparent.” State ex rel. Watson v. Farris, 45 Mo. 183, 197–98
(1869).

1

66a

when God’s unlimited, perfect judgment “will wipe
away every tear from their eyes.” Revelation 21:4
(English Standard Version). That day is yet to come,
and we are left, for now, with the ugliness of litigation
as the least bad way to settle many of our differences.
The intractable imperfection of human
judgment is one of many reasons our Constitutions
deny government authorities—including courts—any
power over churches. Both the Texas Constitution and
the United States Constitution compel judges to
acknowledge that there are places where our
imperfect judicial system does not belong, places
where earthly judges have no power.2 The human
impulse to right every wrong is understandable, but it
can become totalitarian, unless it is accompanied by
an acknowledgment of our human incapacity to truly
right all wrongs, our incapacity as imperfect people to
dispense perfect justice. There are certain places in
our world— places like the church and the family—
whose character as independent sources of authority
apart from the state is best preserved by keeping
courts and judges out of the picture.3 This may mean


See TEX. CONST. art. I, § 6 (“No human authority ought, in
any case whatever, to control or interfere with the rights of
conscience in matters of religion . . . .”) (emphasis added); U.S.
CONST. amend. I (“Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise thereof
. . . .”).

3 “The judicial eye of the civil authority of this land of religious
liberty, cannot penetrate the veil of the Church, nor can the arm
of this Court either rend or touch that veil for the forbidden
purpose of vindicating the alleged wrongs of the excinded
members.” Shannon v. Frost, 42 Ky. 253, 259 (1842).
Ϯ



67a

that some wrongs are not righted in this life, though
it would be a mistake to assume that human judges, if
given the chance, would always right them wisely. We
preserve the independence of our most precious
private institutions from the all-consuming power of
the state by drawing clear lines and abiding by them,
even if doing so seems—from our limited, imperfect
perspective—to leave a wrong unrighted. Our
Constitutions draw many such lines, none clearer
than their protections for religion.
Like all of us, the Diocese of Lubbock will have
to answer to God for the words it chooses.4 Because of
our Constitutions, however, it does not have to
answer to earthly judges. A robust rule of
ecclesiastical abstention prevents the judgments of
courts from influencing the words or actions of
churches, whose mission is to seek conformity with
God’s perfect judgment, not with man’s imperfect
variety. A church is not truly free to manage its
affairs, practice its faith, and publicly proclaim its
doctrine if lawyers and judges lie in wait to pass
human judgment on whether the church should have
chosen its words more carefully. When a church
makes public statements on ecclesiastical or spiritual
matters, it is not for courts to apply the earthly
standards of defamation law to the church’s words.
Our Constitutions prohibit courts from imposing
imperfect human justice on words spoken in pursuit
of God’s perfect justice.
I respectfully concur.

68a

_________________________
James D. Blacklock
Justice
OPINION DELIVERED: June 11, 2021



69a



In The
Court of Appeals
Seventh District of Texas at Amarillo
No. 07-19-00307-CV
IN RE DIOCESE OF LUBBOCK, RELATOR
ORIGINAL PROCEEDING FOR WRIT OF
MANDAMUS
December 6, 2019
OPINION
Before QUINN, C.J., and PIRTLE
and PARKER, JJ.
"Render therefore unto Caesar the things
which are Caesar's; and unto God the things that are
God's."1 The biblical verse captures the inherent
conflict long existent between civil and religious
authority. We now address an aspect of that conflict
raised through the ecclesiastical abstention doctrine.
Jesus Guerrero sued the Diocese of Lubbock for
allegedly defaming and intentionally inflicting
emotional distress upon him. The accusations

Matthew 22:21.

ϭ



70a

underlying both causes of action concern the Diocese's
publication of a list entitled "Names of All Clergy with
a Credible Allegation of Sexual Abuse of a Minor."
Guerrero, a former deacon with the Diocese, found his
name on the list. The Diocese moved to dismiss the
action under § 27.001 et seq. of the Texas Civil Practice
and Remedies Code. So too did it file a plea to the
jurisdiction of the 237th District Court, Lubbock
County. Both motions were denied. That resulted in
the Diocese asking us to review the motion to dismiss
via a separate interlocutory appeal and the plea to the
jurisdiction through a petition for writ of mandamus.
We address the latter here. In it, the Diocese asks us
to issue the equitable writ to direct the Honorable Les
Hatch, presiding judge of 237th Judicial District
Court, to “vacate the trial court’s denial of its plea to
the jurisdiction, and reverse and render judgment
granting the plea to the jurisdiction.”2 We deny the
petition.
Abstention Doctrine
Jurisdiction

and

Subject-Matter

Mandamus is an extraordinary remedy
available only in limited situations. Walker v. Packer,
827 S.W.2d 833, 840 (Tex. 1992) (orig. proceeding); In
re Talley, No. 07-1500198-CV, 2015 Tex. App. LEXIS
6268, at *3–4 (Tex. App.—Amarillo June 22, 2015,

We interpret the request as one asking that we direct the trial
court to 1) vacate its order and 2) enter another dismissing the
suit. Through a writ of mandamus, we do not substitute our
order for that of the trial court. Instead, we assess the accuracy
of the trial court’s decision and, if inaccurate, direct it to enter
the order it should have.


2

71a

orig. proceeding) (mem. op.). Its small umbrella,
though, extends over jurisdictional disputes. In re
Torres, No. 07-19-00220-CV, 2019 Tex. App. LEXIS
6516, at *2-3 (Tex. App.—Amarillo July 30, 2019, orig.
proceeding) (mem. op.); In re Alief Vietnamese Alliance,
576 S.W.3d 421, 428 (Tex. App.—Houston [1st. Dist.]
2019, orig. proceeding). Within such disputes lie
questions about the effect certain religious liberties
have upon a trial court’s subject-matter jurisdiction.
See, e.g., Westbrook v. Penley, 231 S.W.3d 389, 394
(Tex. 2007) (stating that a lack of jurisdiction may be
raised through a plea to a court’s jurisdiction when
religious-liberty grounds form the basis of the
jurisdictional challenge); In re Torres, 2019 Tex. App.
LEXIS 6516, at *3. And, such is the dispute here. The
Diocese posits that the ecclesiastical abstention
doctrine bars the trial court from adjudicating
Guerrero’s lawsuit. In refusing to dismiss it, the trial
court allegedly abused its discretion. See In re Navajo
Nation, ___ S.W.3d ___, ___, 2019 Tex. App. LEXIS
8224, at *9-10 (Tex. App.—Amarillo Sept. 10, 2019,
orig. proceeding) (stating that mandamus is
appropriate when the relator shows that the trial
court clearly abused its discretion and lacked an
adequate legal remedy).3
We recognized in In re Torres, 2019 Tex. App.
LEXIS 6516, that the doctrine may indeed deprive
trial courts of jurisdiction to adjudicate certain civil
actions and entitle an ecclesiastical entity to a writ of

 A relator need not illustrate that he lacks an adequate legal

ϯ

remedy if the trial court lacks jurisdiction over the suit. In re
Alief Vietnamese Alliance, 576 S.W.3d at 428.


72a

mandamus. See id. at *6-7. It all depends upon
whether the factual circumstances underlying the
causes of action fall within the doctrine’s scope.
Generally
speaking,
the
ecclesiastical
abstention doctrine bars civil courts from adjudicating
matters concerning theology, theological controversy,
church discipline, ecclesiastical government, and
compliance with church moral doctrine. Reese v. Gen.
Assembly of Faith Cumberland Presbyterian Church
in Am., 425 S.W.3d 625, 629 (Tex. App.—Dallas 2014,
no pet.). Though easily described, its application and
scope are the source of debate. This is so because the
doctrine does not necessarily bar civil courts from
adjudicating all controversies touching sectarian
interests. In re First Christian Methodist Evangelistic
Church, No. 05-18-01533-CV, 2019 Tex. App. LEXIS
8045, at *12 (Tex. App.—Dallas Aug. 30, 2019, orig.
proceeding) (mem. op.); In re St. Thomas High Sch.,
495 S.W.3d 500, 507 (Tex. App.—Houston [14th Dist.]
2016, orig. proceeding). After all, religious entities,
like the coins of Caesar, co-exist within the secular
world.
Several years ago, our Texas Supreme Court
provided a framework to utilize when parsing through
the debate. We were told, in Masterson v. Diocese of
Nw. Tex., 422 S.W.3d 594 (Tex. 2013), to apply the
neutral principles methodology. Id. at 596; In re
Torres, 2019 Tex. App. LEXIS 6516, at *3 (so
acknowledging). It better conforms to a court’s
constitutional duty to decide disputes within their
jurisdiction while respecting limitations imposed by
those provisions in the First Amendment of the
United States Constitution concerning religion.
Masterson, 422 S.W.3d at 596. Per that methodology,

73a

courts have the jurisdiction to determine nonecclesiastical issues based on the neutral principles of
law applicable to other entities. Id. Falling outside
that jurisdiction, though, are decisions by religious
entities on ecclesiastical and church polity questions;
those we leave to the ecclesiastical authority making
them. Id. However, this is another test more easily
described than applied. As acknowledged in
Masterson, the difference between ecclesiastical and
non-ecclesiastical issues will not always be distinct.
Id. at 606. Indeed, the resolution of non-ecclesiastical
matters may sometimes impinge on church
operations to some degree. See id. (stating that many
disputes of the type there before the court, i.e.,
property ownership after a church schism, will
require courts to analyze church documents and
organizational structures to some degree).
Normally, matters of religion or theology,
church discipline, church governance, church
membership, and the conformity of those members to
church precepts are ecclesiastical in nature and
outside the jurisdiction of civil courts. See Westbrook v.
Penley, 231 S.W.3d at 397-98; Jennison v. Prasifka,
391 S.W.3d 660, 665 (Tex. App.— Dallas 2013, no pet.);
accord In re Torres, 2019 Tex. App. LEXIS 6516, at *56 (listing the areas deemed ecclesiastical by our sister
courts). Yet, as said in Hubbard v. J Message Grp.
Corp., 325 F.Supp.3d 1198 (D.N.M. 2018), “nuances,”
“context and . . . subtle distinctions in the context” play
an important role, as well. Id. at 1213-14. For instance,
in Westbrook, a pastor directed his congregation, via
letter, to 1) shun Penley for engaging in a "'biblically
inappropriate'" relationship and 2) "treat the matter
as a 'members-only issue, not to be shared with those

74a

outside [the congregation].'" Westbrook, 231 S.W.3d at
393. The revelation about the "inappropriate"
relationship occurred when Penley told Pastor
Westbrook of same during a counseling session. Id.
The pastor's letter resulted in Penley suing Westbrook
for defamation and professional negligence. All but
the professional negligence claims were dismissed by
the trial court. Ultimately, our Supreme Court held
that the negligence claim also had to be dismissed.
This was so because "[a]ny civil liability that might
attach for Westbrook's violation of a secular duty of
confidentiality in this context would in effect impose a
fine for his decision to follow the religious disciplinary
procedures that his role as pastor required and have a
concomitant chilling effect on churches' autonomy to
manage their own affairs." Id. at 402.
The court observed that Westbrook's disclosure
was grounded in religious doctrine concerning a threestep disciplinary process. Id. at 404. An "integral part"
of that doctrine required disclosure to church elders,
that is, "to 'tell it to the church.'" Id. Furthermore,
"[t]he letter itself was disseminated to the
congregation as the final step in the process," that
process being "'[t]hrough their continuing sin, they
forfeit their membership in the church, and members
of the church are to break fellowship with them.'" Id.
That Westbrook's action was founded upon church
tenet obligating church members to respond in a
particular way to the discovery of a particular act was
incremental to the decision by the Supreme Court.
Then, we have Turner v. Church of Jesus Christ
of Latter-Day Saints, 18 S.W.3d 877 (Tex. App.—
Dallas 2000, pet. denied). It involved a missionary trip

75a

by Turner undertaken as part of his religious duty.
The church ended it early due to Turner purportedly
encountering emotional or mental problems. Turner
sued the church alleging multiple causes of action
including defamation. But since the facts underlying
those claims implicated church practice and
procedure, most were dismissed for want of
jurisdiction. The defamation claim was not, though. It
arose from the disclosure of medical records to
Turner's grandparents. In explaining why it survived,
the court initially observed that while "the First
Amendment prohibits government regulation of the
information a religious organization chooses to record
concerning its members, the government may regulate
the organization's use of that information if the
regulation would not actively involve the government
in the organization's internal affairs, religious
practice, or religious doctrine." Id. at 896. Then, it
noted that the church failed to explain how the
disclosure of Turner's medical records to his
grandparents "concern[ed] the internal policies of the
Church or matters of faith or ecclesiastical doctrine."
Id. Also absent was any explanation about "how
resolution of the claim would actively involve the
government in the Church's religious activities or
excessively entangle the government with religion."
Id. Consequently, the First Amendment of the United
States Constitution did not bar the defamation claim.
Id. What we see from Turner is the importance of
indicia such as the reason for the disclosure and the
interrelationship between that reason and the
church's internal affairs, religious practice, and
doctrine.

76a

The Turner court is not alone in assigning
weight to the identity of those told information and
their relationship to the church. In Jennison, 391
S.W.3d at 668, the reviewing court held that the facts
underlying the claim of defamation concerned
discipline imposed by the church upon a priest for
inadequate
performance.
Their
adjudication
necessarily required inquiry into canon law, the
application of church policy, and the church's
assessment of the complainant's fitness to perform his
religious duties. Id. Thus, the ecclesiastical abstention
doctrine applied to the claims. Yet, before so holding,
the court took care to mention that “[t]he only
defamatory statements allegedly made . . . were made
to the church itself in connection with the church’s
disciplinary process.” Id. Jennison made “no
allegation the allegedly defamatory statements were
made in any other forum.” Id. In other words, the
injurious act arose from historically ecclesiastical
conduct, namely engaging in the internal discipline of
clergy, that remained internal.
Similarly, in Patton v. Jones, 212 S.W.3d 541
(Tex. App.—Austin 2006, pet denied), the reviewing
court held the abstention doctrine barred the
defamation suit Patton commenced against the
church and various of its clergy. He was the director
of youth ministries and was terminated from the job
due to allegedly inappropriate conduct. Id. at 545-46.
In holding as it did, the court applied a three-prong
test first announced in Heard v. Johnson, 810 A.2d
871 (D.C. App. 2002). Id. at 554-55. Those prongs
consisted of whether 1) the claim flowed entirely from
an employment dispute between the church and its
pastor rendering it impractical to separate the claim

77a

from the church’s decision as to its pastor, 2) the
publication was confined within the church, and 3)
there existed unusual or egregious circumstances. Id.
(quoting Heard, 810 A.2d at 885). Patton’s claim 1)
flowed entirely from an internal employment dispute
between the church and its pastor, 2) involved a
publication confined within the church, and 3)
implicated no unusual or egregious circumstances
surrounding the comments. So, as in Jennison, the
source of Patton’s claim emanated from historically
ecclesiastical conduct confined within the body
having the duty to undertake that conduct. The civil
courts were barred for entertaining it.
Kelly v. St. Luke Comm. United Methodist
Church, No. 05-16-01171-CV, 2018 Tex. App. LEXIS
962 (Tex. App.—Dallas Feb. 1, 2018, pet. denied) (mem.
op.), also involved a suit filed by a terminated church
employee. So too was the ecclesiastical doctrine the
reason why all but one cause of action was dismissed;
the one claim retained was that of defamation. Id. at
*2. The injurious act underlying the claims consisted
not only of statements to church members but also
communications to “persons outside the church” and
non-church members witnessing the injurious act. Id.
at *25. Those circumstances led the court to hold that
“the ecclesiastical abstention doctrine applie[d] to all
of Kelly’s claims other than the portion of her
defamation claim in which she asserts she was
defamed by the alleged publication of the statements
described above to persons outside the church.” Id. at
*26-27. So, like Turner, while the injurious act arose
from historically ecclesiastical activity, it lost
protection when it escaped the internal confines of the
religious entity performing it. See also, Hubbard, 325

78a

F.Supp.3d at 1219 (holding that because the alleged
defamations were published exclusively to the church
membership, “this fact strengthens the [Court’s]
conclusion that Plaintiff’s claims, having occurred in
the context of an ecclesiastical dispute . . . are barred
by the First Amendment”); Pfeil v. St. Matthews
Evangelical Lutheran Church, 877 N.W.2d 528, 541
(Minn. 2016) (involving statements made by pastors
during a formal church disciplinary proceeding and
stating that “on the facts before us—where ministers
made largely religious and doctrinal allegations as
part of an excommunication proceeding and only
disseminated those statements to members of the
congregation—’the First Amendment has struck the
balance for us’”); Kliebenstein v. Iowa Conf. of the
United Methodist Church, 663 N.W.2d 404, 407 (Iowa
2003) (stating that 1) “[t]he fact that Swinton’s
communication about Jane was published outside the
congregation weakens this ecclesiastical shield,” 2)
“otherwise privileged communications may be lost
upon proof of excess publication or publication ‘beyond
the group interest,’” and 3) “if publication solely to
church members justifies ecclesiastical status for
otherwise defamatory communications, proof of
publication to non-church members arguably supports
the opposite conclusion") (emphasis in original); Ex
parte Bole, 103 So. 3d 40, 59-60 (Ala. 2012) (in barring
prosecution of the claim, the court observed that 1) the
"statement of which [Trice] complained related to the
ostensible reason for his termination, conveyed from
the pastor to a member of the congregation concerning
the conduct of another member" and 2) "[a]t least one
court has specifically held that statements by and
between church members 'relat[ing] to the Church's
reasons and motives for terminating [parishioners']

79a

membership' 'require an impermissible inquiry into
Church disciplinary matters'").
A common thread runs through the authority
just cited. A religious body exposing matters
historically deemed ecclesiastical to the public eye has
consequences. The action leaves the area of deference
generally afforded those bodies and enters the civil
realm. This is not to say that such a publication alone
is always enough, but it is a pivotal nuance. Indeed,
arguing that a dispute remains an internal
ecclesiastical or church polity issue after that body
chooses to expose it publicly rings hollow. And, that is
the situation here.
Guerrero's claims arise not from the decision of
the Diocese to discipline a deacon for engaging in
inappropriate sexual activity. That had been done
years earlier with its most recent effort having
culminated in 2009. Instead, they arise from a
decision made some nine to ten years later "to release
the names of clergy who have been credibly accused of
sexual abuse of a minor." A list was developed
containing those names, and Guerrero's name
appeared on it. The Diocese not only incorporated the
list into a message describing its purpose and inviting
those who may have suffered from such abuse to
contact the Diocese but also posted it on its website
accessible by the general public. The posting occurred
on January 31, 2019.
The Diocese then accompanied its internet post
with a press release. Through the press release dated
January 31, 2019, the body announced to local media
that it joined other Catholic Dioceses in Texas in

80a

“releas[ing] names of clergy who have been credibly
accused of sexually abusing a minor.” It continued
with: “[t]he bishops’ decision was made in the context
of their ongoing work to protect children from
sexual abuse, and their efforts to promote healing and
a restoration of trust in the Catholic Church.”
(Emphasis added). Also referred to within the release
was a letter from the bishop of the Lubbock Diocese.
In the letter, the bishop said that “the
administrations of our dioceses are serious about
ending the cycle of abuse in the Church and in
society at large, which has been allowed to exist for
decades.” (Emphasis added). “The scourge of abuse
must be stopped,” wrote the bishop.
News coverage followed. In one instance, a local
television station aired a segment announcing that
“four priests . . . and one deacon have credible
allegations against them . . . of sexual abuse against
children . . . according to the Lubbock Diocese.”
(Emphasis added). Guerrero again was mentioned as
one of the group. Following that pronouncement were
snippets from a chancellor of the Diocese. The snippets
included the chancellor 1) explaining that the reason
the names were not released “sooner” was “bishops at
the time wanted to keep church issues . . . within the
church,” 2) saying that “we felt that whatever was
handled within the church as far as church punishment
was concerned needed to remain in the church,” and 3)
revealing that though relevant names initially were
disclosed to church members, “they weren’t made
public.” The same church representative also sought to

81a

assure that “the church *is* safe for children.”4
(Emphasis added).
Another media outlet reported on the release
as well. It alluded to an interview held with the bishop
of the Lubbock Diocese several months earlier, in
October of 2018. The bishop was quoted as saying in
that earlier interview: “[i]t’s time we need to be honest
about these kinds of matters and society hasn’t
always been open and honest about those.” (Emphasis
added). He also conceded that the church itself had
“maybe done some concealing of such things,” too.
As can be seen, what began years earlier as an
exercise in internal church discipline evolved into an
effort at transparency broadcast worldwide through
the media and internet. Though somewhat
confessional in tone, the event was utilized by the
Diocese, according to one or more church
representatives, as opportunity to address sexual
abuse against “children,” help victims of sexual abuse,
assuage public concern about the safety of “children”
in the church, and criticize both the church and
“society” for not “always [being] open and honest
about” the topic of sexual abuse.
What we have before us is not an incidental
public disclosure of internal church disciplinary
matter. Nor was the information leaked to the public

In the interview with the local station, the Chancellor also
alluded to “the age of the victim” and families not wanting “the
embarrassment for themselves and their children” when
explaining why “parents” do not want information released and
why legal action is not commenced in the “court system.”

4

82a

via the media by individuals lacking permission to do
so. See In re Godwin, 293 S.W.3d 742, 745-46 (Tex.
App.—San Antonio 2009, orig. proceeding) (wherein
an ex-employee of the church gave a local newspaper
the church’s financial information without permission
of the church). Nor did it involve reiteration outside
the church of purported statements uttered within
church confines, such as in a sermon or message
directed to church members. See id. at 746 (where the
utterance at issue was made to those attending
church services and from the pulpit).5 That the
Diocese posted the list on a website accessible by the
public at-large and brought attention to the list and
its accessibility through use of local news media
distinguishes the circumstances at bar from Penley,
Jennison, Patton, and every other judicial opinion we
encountered (or the Diocese cited) that imposed the
ecclesiastical abstention doctrine as a bar.
There is also another bit of nuance
distinguishing our situation from the foregoing
authority. It is the interjection into the discussion of
more than simply the misconduct of those related to
the church. The church's statements that 1) "our
dioceses are serious about ending the cycle of abuse in
the Church and in society at large, which has been
allowed to exist for decades" and 2) "[i]t's time we need

 Even the court in Godwin hesitated when it came to holding

ϱ

that everything said from the pulpit is insulated from
consideration by civil courts. In re Godwin, 293 S.W.3d at 749
(stating that "[c]ase law instructs us that there are indeed limits
to what can be said by church officials from the pulpit" and "an
accusation of inappropriate sexual behavior would likely not be
protected").


83a

to be honest about these kinds of matters and society
hasn’t always been open and honest about those."
(Emphasis
added).
They
reveal
1)
an
acknowledgement that the issue necessitating
attention (i.e., sexual abuse) is more than a church
matter but rather one of society at-large, 2) an intent
to induce society at-large to address the issue, and 3)
an intent to join society at-large in the effort. So,
admonishing, inducing, and joining society at-large is
telling. Those indicia provide further basis dispelling
any nexus between the Diocese's conduct and any
theological, dogmatic, or doctrinal reason for engaging
in it. The same is also true regarding any nexus
between the decision to go public and the internal
management of the church.
Finally, underlying Guerrero's claim of
defamation and infliction of emotional distress is more
than simply a disagreement about the meaning of a
religious term imbedded in canon law, as the Diocese
would have us conclude.6 He avers that the church
labelled him a "child molester," given the context of the
publication. That context is not the definition of
"minor" printed in a retraction posted months later. It
is the Diocese using the word "minor" at the same time
1) its chancellor tells the media and public that "the
church *is* safe for children" and 2) it represents in a
press release that disclosing the names was made "in
the context of . . . ongoing work to protect children
from sexual abuse." (Emphasis added). And, the

Apparently, canon law defines "minor" as including all people
lacking the ability to reason. The individual Guerrero
supposedly abused was an adult allegedly within that
description.


6

84a

Diocese has not cited us to, nor does it argue that, those
of its representatives invoking the word "children"
were relying on, at the time, some bit of canon law or
theological tenet that includes adults within the
category.
Whether one is defamed depends on evaluating
not only the statement uttered but also its context or
surrounding circumstances based upon how a person
of ordinary intelligence would perceive it. See Scripps
NP Operating, LLC v. Carter, 573 S.W.3d 781, 794-95
(Tex. 2019) (directing the use of context); D Magazine
Partners, L.P. v. Rosenthal, 529 S.W.3d 429, 439 (Tex.
2017) (directing consideration of the surrounding
circumstances). Canon law is not in play.
What is in play is how a person of ordinary
intelligence would perceive the accusation that
Guerrero sexually abused a "minor" when the church
accompanied the word with references to abuse
involving "children" and the safety of children. For
instance, it mattered not that the name "Satan" and
the phrase "in the spirit of Satan" may have had
sectarian meaning in Kliebenstein. Because both also
had secular meaning, the court in Kliebenstein held
that it was improper to dismiss Kliebenstein's
defamation suit when the comparisons of her with
Satan left the confines of the church. Kliebenstein, 663
N.W.2d at 408. Both "minor" and "child" have secular
meaning to a person of ordinary intelligence. That
either may have sectarian meaning, as well, does not
mandate application of the ecclesiastical abstention
doctrine.

85a

To quote from Westbrook, "the First
Amendment does not necessarily bar all claims that
may touch upon religious conduct." Westbrook, 231
S.W.3d at 396. Secular courts are not barred from
adjudicating all controversies touching sectarian
interests. That is the situation here. The Diocese, like
the churches in Kliebenstein, Kelly, and Turner,
placed the controversy in the realm of Caesar or the
secular world by opting to leave the confines of the
church. Thus, the secular court in which Guerrero
sued is not barred from adjudicating the matter.
We deny the petition for writ of mandamus.
Brian Quinn
Chief Justice

86a



In The
Court of Appeal
Seventh District of Texas at Amarillo
No. 07-19-00280-CV
DIOCESE OF LUBBOCK
APPELLANT V.
JESUS GUERRERO, APPELLEE
On Appeal from the 237th
District Court, Lubbock County,
Texas Trial Court No. 2019-534,677,
Honorable Les Hatch, Presiding
December 6, 2019 Opinion
Before QUINN, C.J., and PIRTLE
and PARKER, JJ.
This appeal is a companion case to the petition
for writ of mandamus filed by the Diocese of Lubbock.
Our opinion in that cause is styled In re Diocese of
Lubbock, No. 07-19-00307-CV. We address, now, the
appeal perfected by the Diocese of Lubbock from the
order denying its motion to dismiss. The Diocese so
moved under § 27.001 of the Texas Civil Practice and



87a

Remedies Code (TCPA).1 TEX. CIV. PRAC. & REM.
CODE ANN.
§ 27.001 et seq. (West 2015). We affirm in part and
reverse in part.
Our opinion in In re Diocese of Lubbock describes the
general background from which this appeal arose. We
see no need to reiterate it and, instead, incorporate
the opinion into this one. Suffice it to say that
Guerrero sued the Diocese for defamation and
intentional infliction of emotional distress after the
Diocese published a list entitled “Names of All Clergy
with a Credible Allegation of Sexual Abuse of a
Minor” (i.e., the List).2 The list included Guerrero’s
name. According to the Diocese, his suit is subject to
dismissal because the underlying claims fell within
the scope of § 27.003(a) of the TCPA. It also contends
that the trial court lacked jurisdiction to entertain the
cause due to the ecclesiastical abstention doctrine. We
addressed the latter issue via our opinion in Cause
No. 07-19-00307-CV and again reject the
jurisdictional claim for the reasons stated in that
opinion. Now we turn to the TCPA and whether it
mandated dismissal.

Because Guerrero sued prior to September 1, 2019, the
legislative amendments to the TCPA that took effect on
September 1, 2019 have no application here. See City of Port
Aransas v. Shodrok, No. 13- 18-00011-CV, 2019 Tex. App. LEXIS
10063, at *2 n.2 (Tex. App.—Corpus Christi Nov. 21, 2019, no
pet. h.) (mem. op.) (stating that Chapter 27 of the Civil Practice
and Remedies Code, as amended by H.B. 2730, apply only to an
action filed on or after the effective date of this Act which was
September 1, 2019).

2 This list was first published on January 31, 2019, and is not
the retraction and clarification published in April of 2019.

1



88a

TCPA
The provisions of the TCPA act like a pendulum; they
impose burdens on the parties that swing back and
forth. How they swing was described in Batra v.
Covenant Health Sys., 562 S.W.3d 696, 706-08 (Tex.
App.—Amarillo 2018, pet. denied), and Castleman v.
Internet Money Ltd., No. 07-16-00320-CV, 2018 Tex.
App. LEXIS 8559, at *5-7 (Tex. App.—Amarillo Oct.
18, 2018, pet. denied) (mem. op.). We apply that
pendulum here. Yet, before doing so, it is appropriate
to note that the standard of review is de novo, and the
pleadings, affidavits and other evidence of record are
viewed in a light most favorable to the non-movant.
Batra, 562 S.W.3d at 707-08; Castleman, 2018 Tex.
App. LEXIS 8559, at *5-6.
The Diocese’s Burden
The first question is whether the causes of action fall
within the ambit of the TCPA. The net cast by the
statute encompasses “a legal action . . . based on,
relates to, or is in response to a party’s exercise of the
right of free speech, right to petition, or right of
association.”3 TEX. CIV. PRAC. & REM. CODE ANN.
§ 27.003(a). Legal actions within that scope are
subject to dismissal, id. § 27.005(b), unless the
complainant tenders “clear and specific” evidence
establishing “a prima facie case” for each element of

“Legal action” is a lawsuit, cause of action, petition, complaint,
cross-claim, counterclaim, or any other judicial pleading or filing
that requests relief. TEX. CIV. PRAC. & REM. CODE ANN. §
27.001(6) (West 2015).


3




89a

his claim. Id. § 27.005(c). That said, we turn to the
pendulum of burdens.
The first burden lies with the movant to show
that the action falls within § 27.003(a). Greer v.
Abraham, 489 S.W.3d 440, 442-43 (Tex. 2016); Batra,
562 S.W.3d at 706. That Guerrero sued because the
Diocese publicized the List on the internet and
through the media is undisputed. Similarly
undisputed is that the publication purported to reveal
the identity of clergy against whom a “credible”
allegation of sexual abuse involving minors was
made. This satisfied a prong of the TCPA’s definition
of “free speech,” as we now explain.
The “right of free speech” encompasses a
“communication made in connection with a matter of
public concern.” See TEX. CIV. PRAC. & REM. CODE
ANN. § 27.001(3). A “communication” includes the
“making or submitting of a statement or document in
any form or medium.” Id. § 27.001(1). The List is a
statement made by the Diocese and, thus, a
communication.
As for the statement involving “a matter of
public concern,” we note that our Texas Supreme
Court held the “‘commission of crime’” such a concern.
Brady v. Klentzman, 515 S.W.3d 878, 884 (Tex. 2017).
Sexually abusing “minors” is a criminal offense.4 See,
e.g., TEX. PENAL CODE ANN. § 21.11(a) (West 2019)

 The purported definition of “minor” used by the Diocese in

ϰ

deriving the List includes children and adults who “habitually
lack the use of reason.”




90a

(stating that a person commits an offense by engaging
in sexual contact with a child younger than
seventeen); id. § 22.011(a)(2)(A) (stating that a person
commits an offense by intentionally or knowingly
causing the penetration of the anus or sexual organ of
a child); id. § 22.011(a)(1)(A), (b)(4) (stating that a
person commits an offense by intentionally or
knowingly causing the penetration of the anus or
sexual organ of another person without the person’s
consent and it is without the others consent if the
actor knew that the person was incapable either of
resisting or appraising the act due to a mental disease
or defect); id. § 22.011(a)(1)(A), (b)(10) (stating that a
person commits an offense by intentionally or
knowingly causing the penetration of the anus or
sexual organ of another person without the person’s
consent and it is without the other’s consent if the
actor was a clergyman and exploited the other
person’s emotional dependency on the clergyman in
the clergyman’s position as a spiritual adviser). Since
the List described potential sexual abuse of minors
and that is a criminal offense, it also involved a
matter of public concern. See Crews v. Galvan, No. 1319-00110-CV, 2019 Tex. App. LEXIS 8962, at *11
(Tex. App.—Corpus Christi Oct. 10, 2019, no pet.)
(mem. op.) (involving statements about a clergyman
inducing a seventeen-year-old to engage in sexual
conduct). Thus, the Diocese satisfied its initial
burden, and the pendulum swung in the direction of
Guerrero.
Guerrero’s Burden
The next burden lies with the complainant,
Guerrero, and required him to present “clear and



91a

specific evidence” establishing a prima facie case of
each element of his claims. Batra, 562 S.W.3d at 70607; Castleman, 2018 Tex. App. LEXIS 8559, at *6.
The burden is met through tendering the
minimum amount of evidence needed to support a
rational inference that each element of his claims is
true. Castleman, 2018 Tex. App. LEXIS 8559, at *7
(quoting In re Lipsky, 460 S.W.3d 579, 591 (Tex. 2015)
(orig. proceeding)).
Defamation
We begin with the claim of defamation. Its
elements consist of a false statement published by the
defendant with the requisite degree of fault that
defames the plaintiff and causes him damage.
Bedford v. Spassoff, 520 S.W.3d 901, 904 (Tex. 2017);
Castleman, 2018 Tex. App. LEXIS 8559, at *8.
Damages need not be proved, though, where the
statement is defamatory per se. Bedford, 520 S.W.3d
at 904; Castleman, 2018 Tex. App. LEXIS 8559, at *8.
Guerrero contended that the Diocese falsely defamed
him “by publishing his name on a list of alleged child
molesters” and confirming those representations
through its interviews with the local media. This
suggests the presence of a defamation occurring
through a series of events. They include not only what
was said in the List but also said through a press
release and ensuing interviews. As for the List, it was
entitled “Names of All Clergy with a Credible
Allegation of Sexual Abuse of a Minor.” Therein, the
Diocese 1) apologized to “all the victims of abuse,
especially minors”; 2) iterated that “this list includes
the names of priests or deacons against whom a



92a

credible allegation has been made since the Diocese .
. . was created”; 3) represented that “a priest or
deacon’s name only appears on the list if the diocese
possesses in its files evidence of a credible allegation;
and 4) explained that a “‘credible allegation’” was “one
that, after review of reasonably available, relevant
information in consultation with the Diocesan
Review Board or other professionals, there is reason
to believe is true.” As previously mentioned, the
document included Guerrero’s name and assignments
with the Diocese as a deacon. As for the press release
issued by the Diocese, local media were told that the
Diocese joined other Texas Catholic Dioceses in
“releas[ing] names of clergy who have been credibly
accused of sexually abusing a minor.” So too did it
mention that “[t]he bishops’ decision was made in the
context of their ongoing work to protect children
from sexual abuse, and their efforts to promote
healing and a restoration of trust in the Catholic
Church.” (Emphasis added). Media interviews and
coverage followed. One broadcast began with the
announcement that “four priests . . . and one deacon
have credible allegations against them . . . of sexual
abuse against children . . . according to the
Lubbock Diocese.” (Emphasis added). Guerrero was
mentioned as one of the group. Elsewhere in the
broadcast the Diocese’s chancellor sought to assure
the public that “the church *is* safe for children.”
(Emphasis added).
As we said in In re Diocese of Lubbock,
“[w]hether one is defamed depends on evaluating not
only the statement uttered but also its context or
surrounding circumstances based upon how a person
of ordinary intelligence would perceive it.” In re



93a

Diocese of Lubbock, No. 07-19-00307-CV, slip op. at 14
(Tex. App.—Amarillo Dec. 6, 2019, orig. proceeding)
(citing Scripps NP Operating, LLC v. Carter, 573
S.W.3d 781, 794-95 (Tex. 2019), and D Magazine
Partners, L.P. v. Rosenthal, 529 S.W.3d 429, 439 (Tex.
2017)); accord In re Lipsky, 460 S.W.3d at 594 (stating
that whether a publication is false and defamatory
depends on a reasonable person’s perception of the
entirety of a publication and not merely on individual
statements). That context or those surrounding
circumstances may include a series of writings or
events. See Scripps NP Operating, LLC, 573 S.W.3d
at 791 (holding that “[t]he court of appeals could not
make a proper assessment of the alleged defamatory
material in this case without looking at the
‘surrounding circumstances’ encapsulated in this
series” of articles). So, our review is not restricted to
simply the List but rather encompasses the List, the
related press release from the Diocese, as well as
interviews given by church representatives about the
List and why it was developed and published. From
that context and those events, we conclude that a
person of ordinary prudence would perceive those
named in the List as clergy who may have sexually
abused children or those under the age of consent.
Admittedly, the List used the term “minor,” not
“child” or “children.” Yet, neither the List, press
release, nor explanations from those representing the
Diocese explained what it meant by “minor.”5
Moreover, our common parlance tends to assign a
definition to “minor” based upon age, much like the
common understanding of the words “child” and

This definition came several months later.

ϱ



94a

“children.” In reference to human beings, “minors” are
commonly understood to be under- age people or those
below the age of majority or legal responsibility. See
Minor,
MERRIAM-WEBSTER’S
COLLEGIATE
DICTIONARY 791 (11th ed. 2003) (defining minor as
“not having reached majority”); Minor, BLACK’S
LAW DICTIONARY (6th ed. 1990) (defining minor as
“[a]n infant or person who is under the age of legal
competence”). In the everyday mind, they are those
who are too young to legally vote, buy cigarettes, buy
alcohol, or consent to sex, for instance. That common
perception of the term generally does not include
adults older than 17 or 21 depending upon the law
involved. As for the words, “child” or “children,” they
not only have a meaning similar to “minor” in our
everyday parlance but often are interpreted as
describing those of very young age, such as infants,
toddlers, and pre-teens. See Child, MERRIAMWEBSTER’S COLLEGIATE DICTIONARY 214 (11th
ed. 2003) (defining child as “a young person especially
between infancy and youth” and “a person not yet of
age”).
We find little difficulty in concluding that one
who intermixes all those terms while speaking can
readily and reasonably lead the listener to believe
that the subject being discussed encompasses people
under the legal age. Doing such can reasonably lead
others to think the speaker is discussing infants,
toddlers, pre-teens and even teenagers, not adults. So,
the entire context of the conversation initiated by the
Diocese about sexual assault upon “minors” by clergy
would lead “a person of ordinary intelligence . . . [to]
perceive” that those clergy assaulted not adults but
kids, youths, and other people under the age of



95a

majority. And, the Diocese named Guerrero as one of
those clergy against whom there existed a “credible
allegation” of abusing “minors.”6
As for whether the publication was reasonably
susceptible to a defamatory meaning, that implicates
a question of law. Dallas Morning News, Inc. v.
Tatum, 554 S.W.3d 614, 631-32 (Tex. 2018). Its
answer depends on the tendency of the statement to
injure a person’s reputation, expose him or her to
public hatred, contempt, or ridicule, or impeach the
person’s honesty, integrity, virtue, or reputation. See
TEX. CIV. PRAC. & REM. CODE ANN. § 73.001
(West 2017) (defining libel as “a defamation expressed

We are aware of the Diocese’s contention that “the statements

ϲ

made by representatives of the Diocese to the media were not
defamatory concerning Guerrero” and “[t]here [was] no
indication in any of the evidence concerning the media that
either Bishop Coerver or Chancellor Martin specifically
discussed Guerrero in any of the interviews.” That neither
church representative said his name is inconsequential, though,
under the facts at bar. The defamed person need not be expressly
mentioned so long as he or she is otherwise identifiable.
Scarbrough v. Purser, No. 03-13-00025-CV, 2016 Tex. App.
LEXIS 13863, at *13 (Tex. App.—Austin Dec. 30, 2016, pet.
denied) (mem. op.). And, whether the identity is ascertainable,
per Scripps, D Magazine, and Lipsky, depends upon viewing the
entire picture, not simply one corner of it. The entire picture here
consists of the List, posting it for public view on the internet, the
press release sending the List to the media, conversations about
the List and its purpose between church representatives and the
media, and the inclusion of Guerrero’s name on the List.
Together, they made Guerrero’s identity as one of the clergy in
question identifiable. Just as a mime can identify a wall through
his actions, the Diocese and its representatives identified
Guerrero through theirs.




96a

in written or other graphic form that tends to blacken
the memory of the dead or that tends to injure a living
person’s reputation and thereby expose the person to
public hatred, contempt or ridicule, or financial injury
or to impeach any person’s honesty, integrity, virtue,
or reputation or to publish the natural defects of
anyone and thereby expose the person to public
hatred, ridicule, or financial injury”). Accusing one of
sexually abusing children can reasonably be
perceived as having the aforementioned effect; thus,
the publication here is reasonably susceptible to a
defamatory meaning. And, the purported falsity of the
accusation finds evidentiary support in Guerrero’s
sworn denial about having engaged in such conduct
and in the Diocese’s later admission that it had no
evidence that he sexually assaulted someone under 18
years of age.
That leaves us with the two remaining
elements of defamation, which elements are the
statement’s utterance with the requisite fault and
damages. Regarding the latter, authority tells us that
falsely accusing one of committing a crime is
defamatory per se, Dallas Morning News, Inc., 554
S.W.3d at 638, as is accusing one of engaging in
serious sexual misconduct. See, e.g., Miranda v. Byles,
390 S.W.3d 543, 552 (Tex. App.— Houston [1st Dist.]
2012, pet. denied) (holding as defamatory per se an
accusation about the sexual molestation of a child).
The accusation at bar comes within both categories.
Not only is it a factual statement subject to objective
verification but also an accusation about criminal and
serious sexual misconduct. Thus, Guerrero need not
prove damages. As for the requisite fault, the
standard is negligence where the plaintiff is a private,



97a

as opposed to public, figure. Bedford, 520 S.W.3d at
904; D Magazine Partners, L.P., 529 S.W.3d at 440. In
what category Guerrero falls is a question of law.
Klentzman v. Brady, 312 S.W.3d 886, 904 (Tex.
App.—Houston [1st Dist.] 2009, no pet.). No one
suggests that he was anything other than a private
individual when the alleged defamation occurred. Nor
does the record contain evidence placing him into the
category of a public figure. See id. (defining the two
classes of “public figures”). So, our legal conclusion is
that he was a private figure at the time, and the
negligence standard controls.
Under the standard of negligence, a defendant
acts unreasonably if he knew or should have known
that the defamatory statement was false. D Magazine
Partners, L.P., 529 S.W.3d at 440. The record before
us contains sufficient evidence to make a prima facie
case of the Diocese’s negligence in publishing the
purportedly false defamation. We find that evidence
in its own invocation of the meaning of “minor.” The
List itself used the word “minor” when alluding to a
credible allegation of sexual abuse. And, in so using
the word, the Diocese allegedly intended to assign it
the definition accorded under canon law, as revealed
through the affidavit of the Diocese’s bishop. Again,
that definition described a “minor” as “a person who
habitually lacks the use of reason.” Arguably, then, a
“minor” encompasses not only those under the age of
majority but also adults who habitually lack the use
of reason. Knowing this definition, the Diocese
nonetheless incorporated the term “children” into its
public rhetoric about the List. Again, one media outlet
announced that “according to the Lubbock Diocese,”
“four priests . . . and one deacon have credible



98a

allegations against them . . . of sexual abuse against
children.” (Emphasis added). Additionally, a Diocese
representative also told the outlet that the church
was “safe for children.” (Emphasis added). So too did
the Diocese declare in its January 31st press release
that it was working “to protect children from sexual
abuse.” (Emphasis added). While all “children” may
be minors within the canon law’s definition of
“minor,” not all “minors” are children per that same
definition.7 Yet, the purported “credible allegation”
against Guerrero involved an adult around 41 years
old.
Given our earlier discussion about the general
public perception of the word “children,” the Diocese’s
multiple references to “children” while discussing the
List, and its knowledge that Guerrero’s supposed
victim was an adult, there is some evidence of record
from which a fact-finder could reasonably infer that
the Diocese was negligent. There is evidence that the
Diocese knew or should have known 1) the difference
between “minors” and “children” while referring to
“children” and 2) that by speaking about sexual abuse
of “children” the public could reasonably perceive the
discussion to be about clerics who sexually abuse
infants, pre-teens, and those under the age of
majority, not adults. Thus, evidence exists of record
from which one could reasonably infer that the
Diocese publicly portrayed Guerrero has having
abused “children” or people under the age of majority.

 The Diocese does not argue that canon law or other religious

ϳ

tenet also defines “child” or “children” as including certain
adults.




99a

In short, Guerrero carried his burden imposed
by the TCPA. The record contains clear and specific
evidence creating a prima facie case on each element
of defamation.
Intentional Infliction of Emotional Distress
Regarding the claim of intentional infliction of
emotional distress, we need not dwell upon it for long.
In lieu of our engaging in an extended explanation
regarding its components and whether the record
contains evidence of each, we simply focus on one
elemental aspect of the claim. That aspect is the mens
rea. It requires proof that the defendant acted
intentionally or recklessly. Hersh v. Tatum, 526
S.W.3d 462, 468 (Tex. 2017). And, to establish it, the
plaintiff must proffer evidence illustrating the
emotional distress was the intended or primary
consequence of the conduct. Standard Fruit & Veg.
Co. v. Johnson, 985 S.W.2d 62, 67 (Tex. 1998); accord
Fishman v. C.O.D. Capital Corp., No. 05-16-00581CV, 2017 Tex. App. LEXIS 6661, at *14 (Tex. App.—
Dallas July 18, 2017, no pet.) (mem. op.) (stating the
same); Vaughn v. Drennon, 372 S.W.3d 726, 732 (Tex.
App.—Tyler 2012, no pet.) (stating the same). That is,
recovery is available when the defendant desired or
anticipated that the plaintiff would suffer severe
emotional distress. Standard Fruit & Veg. Co., 985
S.W.2d at 67. It is not enough that the emotional
distress emanates from, is derivative of, or “incidental
to the intended or most likely consequence of the”
defendant’s conduct. Id.; Vaughn, 372 S.W.3d at 732.
In the latter situations, the distress is the
consequence of some conduct, it is not the reason for
the conduct. And, because it is the consequence of, as



100a

opposed to the reason for, the conduct, the claim of
intentional infliction of emotional distress is
unavailable. As said by our Supreme Court in
Hoffman-La Roche, Inc. v. Zeltwanger, 144 S.W.3d
438 (Tex. 2004), “[w]here the gravamen of a plaintiff’s
complaint is really another tort, intentional infliction
of emotional distress should not be available. Id. at
447-48; see Warner Bros. Entm’t, Inc. v. Jones, 538
S.W.3d 781, 814 (Tex. App.—Austin 2017, pet.
granted) (holding that Jones did not establish a prima
facie case of intentional infliction of emotional
distress because the facts underlying that claim were
the same facts upon which he based his claim of
defamation); Bilbrey v. Williams, No. 02-13-00332CV, 2015 Tex. App. LEXIS 2359, at *39-40 (Tex.
App.—Fort Worth Mar. 12, 2015, no pet.) (mem. op.)
(holding the same). Instead, there must be proof that
the defendant wanted the plaintiff to suffer or
anticipated that he would suffer severe emotional
distress. In that situation, the distress in not merely
derivative from some other tort; it is the tort’s aim.
Here, neither party cited us to any evidence
indicating that the Diocese intended for Guerrero to
experience emotional distress or anticipated that
such distress would be the primary consequence of the
alleged defamation. Nor did our own search of the
record uncover any. What it did reveal, though, was
that the facts underlying the allegation of severe
emotional distress were the very same ones forming
the basis of Guerrero’s defamation claim. In other
words, his alleged distress derived from being
defamed. So, like Bilbrey and Warner Bros., the record
before us lacks prima facie evidence of an element to



101a

Guerrero’s chose in action sounding in the intentional
infliction of emotional distress.
The Diocese’s Defense
Having found that one of Guerrero’s causes of
action survives dismissal, we now determine if the
Diocese raised some defense or other basis barring
recovery. It attempted to do so by asserting the
doctrine of ecclesiastical abstention. But, as we
explained in our earlier opinion in Cause No. 07-1900307-CV, the doctrine does not apply to the
circumstances at bar.
Conclusion
In ordering that the motion to dismiss be denied, the
trial court did not address individually the two causes
of action Guerrero averred. Nevertheless, we affirm
its order to the extent that it retained the claim of
defamation but reverse it to the extent that it
retained the cause sounding in the intentional
infliction of emotional distress. We also dismiss, with
prejudice, the latter claim and “remand the case to the
trial court for further proceedings consistent with this
opinion, including consideration of the defamation . .
. claim[] and determination of the attorneys’ fees and
sanctions that must be awarded under Section 27.009
in connection with the dismissal of the other claim[].”
Warner Bros. Entm’t., Inc. 538 S.W.3d at 818.
Brian Quinn
Chief Justice



102a

Filed 7/18/2019 11:30 a.m.
Barbara Sucay
District Clerk
Lubbock County, Texas
dm
NO. 2019-534,677
JESUS GUERRERO §
Plaintiff,
§
§
V.
§
§
DIOCESE OF
§
LUBBOCK,
§
Defendant.
§

IN THE DISTRICT COURT
237th JUDICIAL DISTRICT
OF LUBBOCK COUNTY,
TEXAS

ORDER DENYING DEFENDANT’S PLEA
TO THE JURISDICTION
CAME TO BE HEARD on the 25th day of June
2019, Defendant’s Plea to the Jurisdiction this case.
After considering the motions, briefs and arguments
of counsel, the court finds that above referenced
motions shall be denied.
IT IS THEREFORE ordered, adjudged and
decreed that Defendant’s Plea to the Jurisdiction is
DENIED.
Signed on the 16th day of July, 2019.
S/Les Hatch
District Judge

103a

(LIST PUBLISHED 1/31/19)
Names of All Clergy with a Credible Allegation
of Sexual Abuse of a Minor
The Diocese of Lubbock extends an apology to all the
victims of abuses, especially minors, for what you
have suffered and for the way Church leadership has
sometimes failed you in the past.
Bishop Coerver, in his role as chief shepherd of the
diocese, is committed to doing everything in his power
so that the sexual abuse of minors never happens
again.
The Diocese of Lubbock in an effort for transparency
asked our diocesan attorney to engage the services of
a retired law enforcement professional and a private
attorney to review all clergy files for any credible
allegations of abuse of minors.
This list includes the names of priests or deacons
against whom a credible allegation has been made
since the Diocese of Lubbock was created on June 17,
1983.
Also, a priest or deacon’s name only appears on the
list if the diocese possesses in its files evidence of a
credible allegation.
A “credible allegation” is one that, after review of
reasonably available, relevant information in
consultation with the Diocesan Review Board or other
professionals, there is reason to believe is true.

104a

Prior to 1983, offenders who served in the area now
the Diocese of Lubbock should be published on lists
from the Diocese of Amarillo or the Diocese of San
Angelo.
Currently, there is no pending litigation against the
Diocese of Lubbock for any matter pertaining to the
sexual abuse of a minor.
However, in spite of our best efforts, we realize there
could be an omission.
Therefore, if you know of a minor who has been
sexually abused by a member of the clergy, or by
anyone working or volunteering on behalf of the
diocese, please encourage the victim or the victim’s
family to first, contact the civil authorities (your local
police or sheriff’s department and call the Texas
Department of Family and Protective Services at 1800-252-5400).
Then, second, contact our Victim Assistance
Coordinator, Oscar Reyes at (806) 543-9178.
Priests
Name:
Alphonse Boardway, OFM, cap
Assignments: Saint George, Haskell – 1987 to 1989;
Saint Ann, Stamford – 1987 to 1989
Status:
Removed from Ministry – 1989
Died – 1997
Name:
Nelson Diaz
Assignments: Saint Elizabeth, Lubbock – 2001;
Our Lady of Grace, Lubbock – 2002;
Saint Francis, Wolfforth –

105a

Status:

2003 to 2011;
San Ramon, Woodrow – 2003 to 2011
Permanently Removed from Ministry
– 2011

Name:
Patrick Hoffman
Assignments: Sacred Heart, Plainview – 1983 to
1986
Status:
Removed from Ministry – 1987
Died – 2005
Name:
Omar Quezada
Assignments: Our Lady Grace, Lubbock – 2003
(Never served)
Status:
Permanently Removed from Ministry
– 2003
Deacons
Name:
Jesus Guerrero
Assignments: Our Lady of Grace, Lubbock – 1997 to
2003
Suspended – 2003
San Ramon, Woodrow – 2006 to 2007
Status:
Permanently Removed from Ministry
– 2008
The names of the following credibly accused, who
served in the area of the Diocese of Lubbock prior to
its creation in 1983, are listed on the Diocese of
Amarillo web site.
Rodney Howell
Aiden McGuire, SAC
Terry Burke
J. Melton Silva

106a

Alfredo Prado

107a

Fw: Diocese of Lubbock publishes list of clergy
members credibly accused of sexual abuse of a minor
Julio Iglesias
Thu 1/31/2019 2:12 PM
To: News-fox34.com <News@fox34.com>;
4 attachments (376 KB)
image001.jpg;
image003.png;
Letter.pdf

image006.emz;

Thank you,
Craig “Julio” Iglesias
News Operations Manager
Fox 34 News
julio@fox34news.com
www.fox34.com
806-748-2461
From: Lucas Flores <LFlores@catholiclubbock.org>
Sent: Thursday, January 31, 2019 2:09 PM
To: Lucas Flores
Subject: Diocese of Lubbock publishes list of clergy
members credibly accused of sexual abuse of a minor



Roman Catholic
Diocese of Lubbock

Most Rev. Robert
Coerver

108a

Bishop of Lubbock
Lucas Flores
Director
Ext. 219
lflores@catholiclubbock.org
Pat Behnke
Secretary
Ext. 218
pbehnke@catholiclubbock.org
NEWS RELEASE
Date: January 31, 2019
From Lucas Flores, Director of Communications
Diocese of Lubbock publishes list of clergy members
credibly accused of sexual abuse of a minor
LUBBOCK-The Roman Catholic Diocese of Lubbock
published the names of clergy members credibly
accused of sexual abuse of a minor on January 31,
2019 on the diocese's website.
The Diocese of Lubbock joins the 15 dioceses and
archdioceses in the state to release names of clergy
who have been credibly accused of sexually abusing a
minor, going back at least to 1950 or to the year of the
establishment of the diocese.
The list in the Diocese of Lubbock goes back to 1983.

109a

The bishops' decision was made in the context of their
ongoing work to protect children from sexual abuse,
and their efforts to promote healing and a restoration
of trust in the Catholic Church.
In a letter included with the publishing of the list,
Most Rev. Robert Coerver, Bishop of Lubbock, wrote,
that the release of these names—which is occurring
in all the dioceses of Texas—is a good-faith effort on
the part of the Bishops of Texas to increase
transparency and help to restore some confidence
among the ranks of the Faithful, that the
administrations of our dioceses are serious about
ending the cycle of abuse in the Church and in society
at large, which has been allowed to exist for decades.
"I realize that this release of names will be a source of
pain for victims, survivors, and their families," Bishop
Coerver wrote. "I realize that this might also be
occasion for more victims to come forward and to be
appropriately ministered to. We continue to pray for
victims and survivors of abuse of any kind and
especially for those families whose trust in the
Church has been broken."
In the letter, Bishop Coerver also encouraged anyone
who has been abused by anyone acting in the name of
the Catholic Church, especially by members of the
clergy, to report that abuse to local law enforcement
authorities.
Those persons reporting abuse in the Diocese of
Lubbock— after contacting local law enforcement —
should also contact Victims Assistance Coordinator
Mr. Oscar Reyes, at (806) 543-9178.

110a

Also attached is Bishop Coerver’s Letter to the people
of the Diocese of Lubbock.

Lucas Flores
Diocese of Lubbock
Director, Office of Communications
(806) 792-3943 www.catholiclubbock.org

111a

BUSINESS RECORD AFFIDAVIT
Before me, the undersigned authority,
personally appeared Russell Poteet (person signing
affidavit) who being by me duly sworn, deposed as
follows:
I, the undersigned, am over eighteen (18) years
of age, of sound mind, capable of making this
Affidavit, and personally acquainted with the facts
herein stated and do state that the facts in this
Affidavit are true and correct to the best of my
knowledge.
I am the Custodian of Records for
KLBK/KAMC TV. Attached hereto is the
SanDiskSecureAccessV2.0,
concerning
Jesus
Guerrero. These records are kept in the regular
course of business at KLBK/KAMC TV for
KLBK/KAMC TV and it was in the regular course of
business at such address for an employer or
representative with personal knowledge of the act,
event, condition or opinion recorded to make the
memorandum of record or to transmit information
hereof to be included in such memorandum or record,
and the memorandum or record was made at or near
the time of the act, event, condition or opinion, or
reasonably soon thereafter. The records attached
hereto are the original or exact copies of the originals
and nothing has been removed from the original file
before making these true and correct copies.
S/ Russell Poteet
Signature of Custodian

112a

SUBSCRIBED and SWORN TO before me, the
undersigned authority, on this 18th day of June, 2019.
S/ Maria Dolores R(ineligible)
Notary Public In and for the State of Texas.
My commission expires: 10/24/2022

113a

https://www.youtube.com/watch?v=fnN1XcCuIx8
KAMC News:
January 31, 2019; KAMC 6 P.M.
FS/VO/SOTVO/SOT
1 MON
Bryan
Avery, the ‘Catholic Diocese of Lubbock’ and
Amarillo.. Today released the names of clergy in the
area..
Who have ever been *credibly accused of sexual
misconduct.
Take Boxes
KAMC’s ‘Tori Larned’ joins us live from the Diocese
tonight.
And Tori, how many people made the list?
Take live
Tori
Bryan, five clergy members of the Lubbock Diocese
have been ‘credibly accused’ of sexual abuse of a
minor. They say a few of them were also charged or
arrested.
(Priests Names Reviewal VO)
Take FS

114a

Clergy on the list include *Alphonse Boardway and
*Patrick Hoffman who’ve both died.
Omar Quezada, Jesus Guerrero, and Nelson Diaz –
Who was the last to be removed from the ministry in
2011.
Take VO
The Chancellor for the Diocese says all the
individuals abused were minors.
He described ‘credibly accused’ as someone who
admitted to the abuse, are found guilty by the court,
or who were witnessed committing the crime.
Lawyers hired by the Diocese investigated these cases
and turned them over to authorities.
In a statement, the Diocese says, ‘the scourge of abuse
must be stopped.’
However, out of respect to the victims and survivors,
they have to handle the cases with care.
(Priests Names Reveal SOTVO)
Take SOT
Marty Martin, Chancellor, Catholic Diocese of
Lubbock: You have to keep in mind, sometimes, the
authorities are involved but because of the age of the
victims, the parents don’t want anything released and
the only way to ensure that is to not proceed with any
legal court system or situation because then
something is going to leak out and they don’t want the
embarrassment for themselves or their children.
Trailing VO

115a

The Lubbock Diocese is one of 15 across the state
releasing names of clergy who’ve been credibly
accused.
Lubbock Bishop Reverend Robert Coerver, released a
statement saying he knows this will be a ‘source of
pain’ for victims, survivors and their families…
But hopes this will help victims come forward, and
‘promote healing and a restoration of trust in the
Catholic Church.’
When we spoke with Chancellor Martin, he echoed
that feeling.
(Priests Name Reveal)
Take SOT
Marty Martin, Chancellor, Catholic Diocese of
Lubbock: I certainly want people to know that the
Diocese of Lubbock extend an apology to all victims.
Especially to minors but to all victims. Not just
because of what happened to them, but also for the
fact that in the past the church needed them they
failed them. That’s not something we want to do or
will be tolerated anymore.
Take live
Tori
The Bishop encourages anyone who has been abused
by someone in the Catholic Church – to report it local
law enforcement.
Some clergy members accused in Amarillo, also used
to work in Lubbock.
We have the full list of those individuals on our
website everythinglubbock dot com.

116a

Reporting from the Catholic Diocese of Lubbock, I’m
Tori Larned KAMC News.
January 31, 2019; KAMC 10 P.M.
PKG
Trailing VO/Lauren
Diocese across Texas naming clergy in their ministry
accused of sexually abusing children.
Lauren
Good evening, I’m Lauren Matter.
Bryan
I’m Bryan Mudd.
The Dioceses of Lubbock and Amarillo.. Releasing
their own lists of clergy who have been ‘credibly
accused’ of these crimes over the years.
And it’s heartbreaking.
KAMC’s ‘Tori Larned’ joins us with more.
Tori
The Catholic Diocese of Lubbock releasing that list
trying to put a stop to the sexual abuse of children in
their ministry.
They did not say how many victims and survivors
there are, but they hope there will be no more.
(Clergy Names PKG)
Take PKG

117a

Marty Martin, Chancellor, Catholic Diocese of
Lubbock: The Diocese of Lubbock extend an apology
to all victims.
Five members of the Catholic Church ‘credibly
accused’ of sexually abusing children.
In the past the church needed them they failed them.
That’s not something we want to do or will be
tolerated anymore.
A list that goes back to 1983…
Patrick Hoffman last served at Sacred Heart in
Plainview from 1983 to 1986. He was removed in 1987
and died in 2005.
Alphonse Boardway’s last assignment was at Saint
Ann in Stamford from 1987 to 1989… He was
removed from the ministry in 1989 and died in 1997.
Omar Quezada’s last assignment was at Our Lady of
Grace in Lubbock. He never served but was removed
in 2003.
Jesus Guerrero last served at San Ramon in Woodrow
from 2006 to 2007 and was removed a year later.
Finally, Nelson Diaz last served in Woodrow from
2003 to 2011… and was removed in 2011.
Marty Martin, the Chancellor with the Diocese of
Lubbock believes many of these men were either
arrested or charged.

118a

Marty Martin, Chancellor for Diocese of Lubbock:
Credibly accused is either the person admits to doing
it, are found guilty in the court of law or the abuse has
been witnessed by somebody and they testify against
it. If the accusation is credible, that person is
immediately removed from ministry.
In a letter, Bishop Robert Coerver Apologized: “I
realize that this release of names will be a source of
pain for victims, survivors, and their families. I
realize that this might also be occasion for more
victims to come forward and to be appropriately
ministered to”
With the help of authorities, the Catholic Diocese now
trying to protect children from future harm.
We do total cooperation with the authorities during
the investigation.
We reached out to Lubbock police said they currently
have no investigations of abuse on record for these
names… and don’t know if they were reported to other
agencies. However they will look into this situation.
Tori
The Diocese says if you or anyone you know has been
abused by anyone acting in the name of the Catholic
Church.
Report them to the victim’s assistance coordinator of
the Diocese and to your local authorities.
March 25, 2019; KAMC 10 P.M.
VO

119a

Bryan
A Lubbock man is suing the Catholic Diocese of
Lubbock.
(Diocese Lawsuit VO)
Take VO
‘Jesus Guerrero’ claims that the church falsely
accused him of sexual abuse.
‘Guerrero’ was on the list of names released by the
church.. as being ‘credibly accused’ of sexually
abusing a minor.
But the lawsuit states ‘Guerrero’ has never been
accused of sexual abuse or misconduct against a
minor..
And has never even been investigated for those
crimes.
He accuses the Dioceses of libel and defamation.. and
is seeking at least a million dollars.

120a

https://www.youtube.com/watch?v=AWPdTAFGTPA
KLBK News:
January 31, 2019; KLBK 6 P.M.
VO/SOT/FS
Terri
Good evening, I’m Terri Furman. The Catholic
Diocese of Lubbock released names of priests today
who are *credibly* accused of sexual abuse. The
Diocese has been creating this list for us since
October.
Our Mari Salazar has the names on the list for us
tonight.
Take boxes
She joins us from the Diocese. Mari, these men were
all permanently removed from ministry.
Take live
Mari
Terri, they were.. And some of the cases date back to
the 80’s. But no one matter the circumstance..
The Diocese reviewed any accusation against a
church member.
(Priest Allegations VO)
Take VO

121a

This is the list of priest* names released here in
Lubbock -‘Alphonse Boardway’ is the first name.
His last assignment was ‘Saint Ann Catholic Church’
in Stamford – Texas..
He was removed from ministry in 19-89.. and he
passed away in 19-97.
Second is ‘Nelson Diaz’
His last assignment was ‘San Ramon’ in Woodrow.
He was removed from ministry in 20-11.
Next- ‘Patrick Hoffman’.
His last assignment was Sacred Heart in Plainview.
He was removed from ministry in 19-87.. and he died
in 2005.
Fourth -- ‘Omar Quezada’
His last assignment was ‘Our Lady of Grace in
Lubbbock’.. The release says he never served..
But was permanently removed from the ministry in
2003.
Lastly – ‘Jesus Guerrero’.. He was a Deacon.
His last assignment was also ‘Our Lady of Grace’.
He was removed from ministry in 2008.
The Chancellor with the Diocese told me this
afternoon.
He wants victims to know the Diocese wont allow this
behavior.
(Priest Allegations SOT)

122a

Take SOT
Marty Martin/Diocese of Lubbock Chancellor: “The
Diocese of Lubbock extends an apology to all victims.
Especially the minors, but to all victims. Not just of
what happened to them, but also for the fact in the
past many times, the church leaders have failed them
and that’s not something we want to do and that’s
something that won’t be tolerated anymore.”
Take FS
Bishop Coerver says he’s out of the country right
now..
But says in a statement in part quote..
He continues to pray for the victims and survivors of
abuse of any kind..
Especially for those families whose trust in the church
has been broken.
His full statement is on our website.
Take live
Mari
Some of the men listed have been charged or arrested
for the crimes.
The Amarillo Diocese also released a list of names in
their area..
Several also served in the Lubbock area at some point
in time.
You can find that list on our website everything
Lubbock dot com.
For now reporting live from the Diocese of Lubbock.
I’m Mari Salazar, KLBK news.

123a

January 31, 2019; KLBK 10P.M.
PKG
Terri
Good evening, I’m Terri Furman.
The Catholic Diocese of Lubbock released names of
clergy members today who are *credibly* accused of
sexual abuse.
The list has been in the making since last fall.
The Diocese trying to be as open as possible with their
community.
Hoping to prevent future child abuse.
Our Mari Salazar has been following this story for us.
Mari, how many names are on the list?
Huge
Mari
Terri, there were 4 names of priests and one deacon.
The Amarillo Diocese also released a list.
Several had served in the Lubbock area at some point
in time.
When I spoke with the Chancellor of the Diocese in
Lubbock..
He says he wants victims to know they won’t allow
this behavior.
(Priest Accusations PKG)
Take PKG
Marty Martin/Diocese of Lubbock Chancellor: “The
Diocese of Lubbock extends an apology to all victims.”

124a

Martin says the victims were all minors.
Marty Martin/Diocese of Lubbock Chancellor: “To all
victims. Not just of what happened to them, but also
for the fact in the past many times, the church leaders
have failed them and that’s not something we want to
do and that’s something that won’t be tolerated
anymore.”
These are all the men accused* of sexual abuse. The
church says.
‘Alphonse Boardway’… His last assignment was
‘Saint Ann Catholic Church’ in Stamford – Texas..
Removed from ministry in 19-89.. and he passed away
in 19-97.
‘Nelson Diaz’
His last assignment was ‘San Ramon’ in Woodrow.
He was removed from ministry in 20-11.
‘Patrick Hoffman’
His last assignment was ‘Sacred Heart’ in Plainview.
He was removed from ministry in 19-87.. and died in
2005.
Fourth – ‘Omar Quezada’
His last assignment was ‘Our Lady of Grace’ in
Lubbock… The release says he never served.
But was permanently removed from ministry in 2003.
Lastly – ‘Jesus Guerrero’.. He was a Deacon.
His last assignment was also*‘Our Lady of Grace’.
He was removed form ministry in 2008.

125a

Chancellor Martin says a credible allegation means a
couple different things.
Marty Martin/Diocese of Lubbock Chancellor: “Either
the person admits to doing it, they are found guilty in
a court of law or -- (correcting himself) -- or the abuse
has been witnessed by someone and they testify
against it.”
The list released by the Catholic Diocese of Lubbock
is meant to restore faith in church leaders.
Huge
Mari
Bishop Coerver says he’s out of the country right
now..
But says in a statement..
In part quote..
Take FS
He continues to pray for the victims and survivors of
abuse of any kind. Especially for those families whose
trust in the church has been broken
His full statement is on our website.
Take FS
Lubbock police also responded to the list of names
released..
They say quote in part..
They “are currently searching through records. At
this time, LPD does not appear to have any past or

126a

current investigations of abuse occurring within the
City of Lubbock by these individuals.”
Huge
Mari
The Diocese says if you or anyone you know has been
abused by someone acting in the name of the Catholic
Church..
Report them to the victim’s assistance coordinator of
the Diocese.
March 25, 2019 KLBK 10 P.M.
FS/VO
(Diocese FSVO)
Take FS
Terri
A Lubbock man is suing the Catholic Diocese of
Lubbock –
Jesus Guerrero says the church falsely accused him of
sexual abuse.
Take VO
All of the Texas Dioceses were ordered to release the
names of “credibly accused” clergy.
Guerrero was on the list.
He was listed as a Deacon that was removed from
ministry.

127a

One part of the lawsuit said Guerrero was never
accused of sexual abuse or been investigated in any
way for misconduct against a minor.
The lawsuit seeks 1-million dollars or more.

128a

Roman Catholic
Diocese of Lubbock
Most Rev. Robert Coerver
Bishop of Lubbock
Lucas Flores
Director
Ext. 219
lflores@catholiclubbock.org
Pat Behnke
Secretary
Ext. 218
pbehnke@catholiclubbock.org
NEWS RELEASE
Date:

October 10, 2018

From:

Lucas Flores, Director of Communications

Texas Catholic dioceses announce plan to
release names of clergy credibly accused of
sexual abuse of minors
Lists of clergy will cover at least 1950 to 2018
LUBBOCK- The 15 Catholic dioceses in Texas and the
Ordinariate of the Chair of St. Peter made the
decision on Sept. 30 to release names of clergy who

129a

have been credibly accused of sexually abusing a
minor, going back at least to 1950.
The bishops’ decisions was made in the context of
their ongoing work to protect children from sexual
abuse, and their efforts to promote healing and a
restoration of trust in the Catholic Church.
“This is an action in response to the faithful’s call for
greater accountability and transparency,” said
Cardinal Daniel DiNardo, archbishop of GalvestonHouston. “Every bishop in our state has made a
statement expressing his concern for all who have
been hurt and I want to express my personal sorrow
at such fundamental violations of trust that have
happened. We are completely committed to
eradicating the evil of sexual abuse in the church and
promoting healing among the faithful and those
injured by this crime.”
With 8.5 million Catholics and 1,320 Catholic
parishes in Texas, the endeavor to compile a
comprehensive list of clergy who have been credibly
accused of sexually abusing a minor represents a
major project. All dioceses will publish their lists by
Jan. 31, 2019.
“It will take some time for files to be reviewed, and
there may be people who come forward with new
information following this announcement. My brother
bishops in Texas and I agree that transparency in this
painful matter of sexual abuse can assist with healing
for survivors and transformation for our Church,”
explained Archbishop Gustavo Garcia-Siller, MSpS,
archbishop of San Antonio.

130a

The release of names of clergy credibly accused of
sexually abusing a minor is part of an ongoing effort
by the dioceses to provide an even safer environment
for children. These lists will be updated as new
information becomes available.
For information on reporting child abuse in Texas,
please visit: http://txcathlic.org/how-to-report
From Most Rev. Robert Coerver, Bishop of Lubbock:
The care of members of the Catholic Church on the
South Plains is the top priority for the Roman Catholic
Diocese of Lubbock and for me, the Bishop of Lubbock.
Today’s announcement is a message of action that will
help the Church continue to work to nurture an
environment of transparency and accountability
which is necessary especially to rebuild the trust of
those who have experienced abuse.
As we continue this work, we must move forward in a
spirit of justice and reparation, while also preserving
principles of mercy and compassion.
The Catholic Church in the United States has worked
to provide safe environments, especially over the last
15 years. We will remain vigilant to provide an even
safer environment for every child in our care.
We pray for victims and survivors of abuse of any kind,
and we pray especially for those families whose trust
in the Church has been broken. We also pray for the
Holy Spirit to renew the Church as we work to heal
these wounds to the Body of Christ.

131a

Catholic Pastoral Center 4620 Fourth Street ŏ
Lubbock TX 79416
Mailing Address P.O. Box 98700 ŏ Lubbock TX
79499-8700 ŏ 806-792-3943 ŏ
www.catholiclubbock.org

132a

Bishop: ‘Lubbock clergy could be on list of accused
priests’
Fox 34 News
Bishop: ‘Lubbock clergy could be on list of accused
priests’
By Megan Payne Connect Posted: Oct 10, 2018 8:35
PM CDT
Updated: Oct 10, 2018 8:35 PM CDT
Lubbock, Texas – Texas Catholic dioceses plans to
release names of clergy credibly accused of sexually
assaulting a minor by the end of January. The
accusations will date back to 1950. With more than 8
million Catholics in our state, and nearly 4,000 clergy,
it is a tall order.
On this list Bishop Robert Coerver expects cases from
here in Lubbock.
“It will be part of what we reveal” Coerver said. “I
don't know that there are to many. We've gotta have
objective people go through our files.”
Coerver said it is a step the church is willing to take
to ensure children are safe.
“We’re giving a whole lot more credence to civil law
and to civil society norms and expectations," Coerver
said, “In the past, I’m afraid the church might have
felt they're above those expectations and now we’ve
discovered that we can’t be and we shouldn’t be.”

133a

For Lubbock rape crisis center, Voice of Hope, 38
percent of it’s cases in 2017 were minors Community
Outreach Coordinator Leslie Timmons believes it is
important for any religious entity to create a safe
environment for victims.
“You know the victims that might have been affected
are probably in that age range when the assault took
place,” Timmons said, “You know we’re just here to
offer support for the community to offer victims help.”
Coerver said the diocese is working to offer healing
within the church. There is now a victims assistance
coordinator who is dedicated to tending to those
claiming abuse.
“We’ve got our safe environment training that all of
our clergy, all of our staff, most of our volunteers have
to through and it’s an extensive training program that
involves background check as well,” Coerver said.
Coerver encourages survivors to report abuse so the
proper steps can be taken before a list is release.
“We are doing this out a sense of transparency and
accountability, and my hope and prayer is that we can
move forward with justice and sense of reparation,
but also maintaining principles of mercy and
compassion,” Coerver said.
The Diocese of Lubbock was founded in 1983 and this
list will go back as early as 1950, Coerver said cases
withing that 30 year gap would have been reporter in
either Amarillo or San Angelo.

134a

Via Diocese of Lubbock
To report known or suspected neglect or abuse of a
minor (under age 18) or vulnerable adult, call the
Texas Department of Family and Protective Services
(DFPS) Child/Vulnerable Adult Abuse Hotlines at 1800-252-3400 or your local law enforcement agency. If
there is an immediate danger, call 911.
Once Local Law Enforcement Agency, 911 and/or the
Child Abuse/Vulnerable Adult hotline has been called
regarding present or past sexual abuse or sexual
assault allegedly by any clergy, religious,
diocesan/parish employee or volunteer, contact the
Diocesan Victim Assistance Coordinator, Oscar Reyes
at 806-543-9176 wo will initiate diocesan procedures.
www.fox34.com/story/39288891/bishiolubbock-clerfycould-be-on-list-of-accused-priests

135a

KLBK NEWS
THE ROMAN CATHOLIC DIOCESE OF LUBBOCK
PLANS TO RELEASE NAMES OF ACCUSED
PRIESTS
By: Mari Salazar
Posted: Oct 10, 2018 / 10:34 PM CDT / Updated: Oct
10, 2018 / 10:34 PM CDT
The Catholic Diocese of Texas plans to release names
or priests accused of sexual abuse on January 31,
2019. The Roman Catholic Diocese of Lubbock plans
to release names, as well. The Bishop of Lubbock said
they want to restore trust in the church and protect
children from crime.
RELATED:
https://www.everythinglubbock.com/news/localnews/lubbock-diocese-statement-on-names-of-clergyaccused-of-sexual-abuse/1513124387
Bishop Robert Coerver said they want to provide a
safe place for everyone and the first step is to be
transparent and help the victims through the healing
process.
“That trust has been damaged especially through the
events of this summer that have bene widely
publicized,” said Coerver.
https://www.everythinglubbock.com/news/klbknews/the-roman-catholic-diocese-of-lubbock-plans-torelease-names-of-accused-priests/

136a

Names of All Clergy with a Credible Allegation of
Sexual Abuse of a Minor or a Vulnerable Adult
Revised April 10, 2019
Priests
Name:
Alphonse Boardway, OFM, cap
Assignments: Saint George, Haskell – 1987 to 1989;
Saint Ann, Stamford – 1987 to 1989
Status:
Removed from Ministry – 1989
Died – 1997
Name:
Nelson Diaz
Assignments: Saint Elizabeth, Lubbock – 2001;
Our Lady of Grace, Lubbock – 2002;
Saint Francis, Wolfforth –
2003 to 2011;
San Ramon, Woodrow – 2003 to 2011
Status:
Permanently Removed from Ministry
– 2011
Name:
Patrick Hoffman
Assignments: Sacred Heart, Plainview – 1983 to
1986
Status:
Removed from Ministry – 1987
Died – 2005
Name:
Omar Quezada
Assignments: Our Lady Grace, Lubbock – 2003
(Never served)
Status:
Permanently Removed from Ministry
– 2003
Deacons
Name:

Jesus Guerrero

137a

Assignments: Our Lady of Grace, Lubbock – 1997 to
2003
Suspended – 2003
San Ramon, Woodrow – 2006 to 2007
Status:
Permanently Removed from Ministry
– 2008
Clarification
On January 31, 2019, the Diocese of Lubbock posted
a list of names of all clergy with a credible allegation
of sexual abuse of a minor. A determination that an
allegation against a member of the clergy is credible,
and therefore, should be published, is not equivalent
to a finding by a judge or jury that the cleric is liable
for sexual abuse of a minor under civil law or has
committed criminal sexual abuse of a minor under the
Texas Penal Code unless specifically indicated.
Under canon law (Article 6 of the Substantive Norms
of Sacramentorum sanctitatis tutela) a person who
habitually lacks the use of reason is considered
equivalent to a minor. Canon law, in addition to civil
law, is binding on the Diocese of Lubbock and its
clerics.
The January 31 list included Jesus Guerrero, a
deacon who was suspended from ministry in 2003 and
permanently removed from ministry in 2008. The
Diocese of Lubbock has no information of a credible
allegation of sexual abuse of a minor below the age of
eighteen (18) by Jesus Guerrero.
The Diocese of Lubbock has concluded there is a
credible allegation against Jesus Guerrero of sexual

138a

abuse of a person who habitually lacks the use of
reason.
The
Diocese
of
Lubbock
regrets
any
misunderstanding that may have arisen from the
January 31 posting.
The names of the following credibly accused, who
served in the area of the Diocese of Lubbock prior to
its creation in 1983, are listed on the Diocese of
Amarillo web site.
Rodney Howell
Aiden McGuire, SAC
Terry Burke
J. Melton Silva
Alfredo Prado

139a

STATE OF TEXAS
COUNTY OF LUBBOCK

§
§
§

AFFIDAVIT OF JESUS GUERRERO
“My name is Jesus Guerrero and my birthday
is July 3, 1944. I am currently 74 years old.
“I am and have been a lifelong resident of
Lubbock County, Texas.
“I have been married to my wife Simona
Guerrero for 57 years and we raised 4 children. We
now have 14 grandchildren and 18 great
grandchildren.
“I worked for Hamilton Acoustical and Henley
for 35 years and retired with an excellent work
history.
“On or about 1990, I became interested in
becoming a deacon and began my deacon service in
1997. A deacon is strictly a voluntary position and I
was not provided a salary or a wage for being a
deacon.
“I was initially assigned to Our Lady of Grace
here in Lubbock, Texas.
“I have never been accused, investigated,
criminally charged or questioned regarding any
accusations of sexual abuse against any minor.

140a

“In February 2003, I was informed, via letter,
that there was a complaint against me regarding an
allegation of sexual misconduct involving a lady
named Rachel Placencio, who was in her 40’s at the
time.
“I denied and continue to deny that anything
inappropriate happened between me and Ms.
Placencio.
“I have known Ms. Placencio and her family for
a long time, and in 2003, she told me that her father
was sick, and she asked if I would accompany her and
her father to the doctor. We had a friendly
relationship with her and her family. As far as I knew,
she was never declared incompetent or insane. She
would make strange comments and ramble
sometimes but appeared to be able to communicate
with me effectively regarding daily life. In fact, I knew
that she was charged with caring for her father
because at the time, her mother and father had
separated. I knew that she took care of her father and
all his needs, including paying bills, grocery shopping
and keeping up with her father’s appointments. I also
knew she was active in the Church and was a choir
member at the 11:00 o’clock mass. I never observed
her have any trouble interacting with members of the
church or the choir. In fact, I knew that she
maintained a job at Josie’s Restaurant. The church
never notified me that Ms. Placencio was a
“vulnerable adult.”
“I had been speaking and helping Ms. Placencio
for a few weeks, until his appointment. I helped take
her father to the doctor and it was recommended that

141a

he have heart surgery and he did. After the surgery I
had no contact with Ms. Placencio on any meaningful
level.
“During the time that her father was ill, Ms.
Placencio would come to me for spiritual guidance.
Ms. Placencio would say things like she saw angels
and demons and make sexual comments, and I would
tell her that it was not appropriate and that she
should not be talking about sexual things.
“We never engaged in any physical sexual
conduct whatsoever.
“I was never informed of what the actual
allegation was – I say down in front of a board and
they asked a lot of questions, but I was never
informed as to what the exact allegation was about. I
asked repeatedly, who, what, when and where and I
was never informed of any specifics. They only thing
they told me was that there was a complaint.
“I was suspended by the Bishop in February of
2003 and reinstated as s deacon in January of 2007.
The Bishop asked me to attend counselling with J.
Maria Bermudez, Ph.D. and I did. My understanding
is that she asked for more information and the
Church was unable to provide any “details” of the
allegation of misconduct.
“In 2007, I was assigned to Woodrow, Texas.
Bishop Placido called me and said that was an
allegation that I had been at Rachel Placencio’s house.
At that time, I hadn’t seen Ms. Placencio or talked to
her since 2003. My wife and I had run into her

142a

occasionally in the neighborhood, but never had any
meaningful conversations with her since after the
2003 allegation.
“On January 31, 2019, the Diocese of Lubbock
posted a list of people they described as “Names of all
Clergy with a Credible Allegation of Sexual Abuse of
a Minor” and I heard and saw for the first time on the
local news (Channel 34 – FOX) my name. On the
television was Marty Martin, a Chancellor of the
Catholic Church, saying that I had been credibly
accused of sexual assault against a minor.
“When I first saw this, my heart stopped for a
minute and after I saw the broadcast, I was shocked,
confused, hurt and I knew that it wasn’t true.
“I have 3 girls and a boy. All of my children
called me and asked me about the allegations and
expressed that they were horrified and embarrassed.
“After the allegations came out, people at the
Church and the community began to shun me, look at
me funny and began to avoid me. We were going to St.
Joseph’s Catholic Church, but the environment
became so tense, that we decided to move to Our Lady
of Guadalupe, in Lubbock, Texas.
“Since the allegation has come out, I have
suffered ailments because of the stress. I have had
difficulty sleeping because of these allegations.
Because of my heart condition, the doctor will not
prescribe me any medicine for my sleeplessness, and
I continue to have sleepless nights. I experience

143a

nausea, dizziness, anxiety and depression because of
these false allegations.
“When I think about the false allegations
levelled against me, I get severe headaches and
experience dizziness that requires my wife to help me.
I have talked to my doctor about the stress of this
event and the stroke that I suffered in March of this
year. My doctor says that the stress of this situation
was a contributing factor to the stroke. I have
continued to suffer from high blood pressure. In April
of this year, my blood pressure went too high and I
was re-admitted because the doctors couldn’t get my
blood pressure under control.
“At this stage in my life, I am concerned about
the legacy that I leave for my children. There is a
publication out there that says that I have been
credibly accused of sexual abuse of a minor and that
is not the legacy that I want to leave, nor is it the
truth. My legacy has been damaged because of these
false accusations.
2019.

WITNESS MY HAND this 18th day of June,
S/Jesus Guerrero
Affiant

144a

STATE OF TEXAS
COUNTY OF LUBBOCK

§
§
§

ACKNOWLEDGMENT
BEFORE ME, the undersigned authority, on
this day personally appeared Jesus Guerrero, known
to me to be the person whose name is subscribed to
the above and foregoing instrument, and
acknowledged to me that he/she executed the same for
the purposes and considerations therein expressed.
GIVEN UNDER MY HAND AND SEAL OF OFFICE
this 18th day of June 2019.

S/Patricia Mojica
Notary Public in and for the State of Texas

145a

NO. 2019-534,677
JESUS GUERRERO §
Plaintiff,
§
§
V.
§
§
DIOCESE OF
§
LUBBOCK,
§
Defendant.
§

IN THE DISTRICT COURT
237th JUDICIAL DISTRICT
OF LUBBOCK COUNTY,
TEXAS

PLAINTIFF'S ORIGINAL PETITION
TO THE
COURT:

HONORABLE

JUDGE

OF

SAID

NOW
COMES
JESUS
GUERRERO,
hereinafter called (“Plaintiff” or “Guerrero”),
complaining of and about DIOCESE OF LUBBOCK,
hereinafter called Defendant, and for cause of action
shows unto the Court the following:
DISCOVERY CONTROL PLAN LEVEL
1.
Guerrero intends that discovery be
conducted under Discovery Level 3.
PARTIES AND SERVICE
2.
Guerrero is an Individual whose
address is 1905 38th Street, Lubbock, Texas 79412.
3.
The last three numbers of Guerrero's
driver's license number are 653. The last three
numbers of Guerrero's social security number are

146a

060.
4.
Defendant Diocese of Lubbock, is a
church, lawfully doing business in Lubbock, Texas
with a registered address of PO BOX 98700,
LUBBOCK, TX 79499-8700.
Service of said
Defendant as described above can be effected by
personal delivery, by serving Bishop Robert M.
Coever.
JURISDICTION AND VENUE
5.
The subject matter in controversy is
within the jurisdictional limits of this court.
6.
Guerrero seeks monetary relief of over
$1,000,000, including damages of any kind,
penalties, costs, expenses, pre-judgment interest,
and attorney fees.
7.
This court has jurisdiction over the
parties because Defendant is a Texas resident.
8.
Venue in Lubbock County is proper in
this cause because the facts giving rise to this cause
of action arose in Lubbock County.
FACTS
9.
Guerrero is a
Lubbock County, Texas.

lifelong

resident

of

10.
Guerrero has been married to his wife
of 57 years, Simona Guerrero, and the two raised 4
children. They now have 14 grandchildren and 18

147a

great grandchildren.
11.
Guerrero
worked
for
Hamilton
Acoustical and Henley for 35 years and retired with
an excellent work history.
12.
Guerrero has been a faithful servant of
God in the Catholic Church his entire life. Guerrero
became a Deacon in 1998 and is still active in the
Guadalupanas and as Cursillistas Catholic
Organizations. Additionally, Guerrero has been a
Continuing Catholic Education teacher for 18 years.
13.
On January 31, 2019, Diocese of
Lubbock published a list of people it deemed to be
“credibly accused of sexual abuse of a minor.” On or
about that date, a Catholic Church Representative
Marty Martin conducted a series of interviews with
local media outlets, KMAC, KCBD, FOX and the
Lubbock Avalanche Journal.
14.
Guerrero was named on said list of
alleged child molesters.
15.
In said interviews, Mr. Martin
indicated that all people named on said list were all
credibly accused of sexual misconduct against a
MINOR, including Guerrero. Further, Mr. Martin
affirmatively stated, that to be “credibly accused”
meant that the individual either admitted to the
abuse, was found guilty in a court of law or the act of
sexual misconduct was witnessed by a credible
person who testified against that person.
16.

On the same date, the Defendant

148a

engaged in a press conference in Lubbock, Texas
stating “[t]he Bishops’ decision was made in the
context of their ongoing work to protect children
from sexual abuse, and their efforts to promote
healing and a restoration of trust in the Catholic
Church.”
17.
Prior to his name appearing on the
above referenced list of alleged child molesters,
Guerrero had never been accused of sexual
abuse and/or misconduct against a minor, nor
had he ever been investigated for any sexual abuse
and/or misconduct against a minor.
18.
Prior to releasing the list of alleged
child molesters, the Diocese of Lubbock knew
that Jesus Guerrero had never admitted, nor
had he been criminally charged and further
knew that no witness ever testified that
Guerrero abused a minor.
JESUS GUERRERO'S CLAIM FOR
DEFAMATION—LIBEL
19.
On or about January 31, 2019, Diocese
of Lubbock, publicly defamed Guerrero by publishing
his name on a list of alleged child molesters.
20.
Guerrero has been a member of the
Catholic community and a citizen of Lubbock County
his entire life, and Defendant’s actions have severely
damaged his reputation.
21.
Guerrero is a private individual and not
a public official nor public figure for any purpose.

149a

22.
Diocese of Lubbock has expressed, in
written form false information about Guerrero
thereby causing severe injury to Guerrero’s
reputation and exposing Guerrero to contempt and
ridicule and has destroyed Guerrero’s reputation for
honesty, integrity and virtue.
23.
The foregoing statements by Diocese of
Lubbock were false, both in their particular details
and in their main point, essence or gist in the entire
context in which they were made.
24.
The defamatory statements constitute
defamation per se in that they falsely state that
Jesus Guerrero was and had been “credibly accused”
of sexual misconduct of a minor, and are therefore
libelous per se.
25.
The foregoing defamatory statements
by Defendant were published in written form and
confirmed in various news interviews by
representatives of the Diocese of Lubbock. Said
statements, were defamatory with regard to
Guerrero in that they injured his reputation and
exposed him to public hatred, contempt or ridicule.
These false statements were made with the intent to
impeach Guerrero’s honesty, integrity, virtue or
reputation.
The defamatory statements are
therefore libelous and libelous per se.
26.
In the alternative, the foregoing
statements by Diocese of Lubbock were defamatory
by implication and/or by innuendo.




150a

27.
Diocese of Lubbock has failed to retract,
though requested to do so, and failed to exercise
ordinary
care
to
prevent
the
foreseeable
republication
of
the
foregoing
defamatory
statements.
28.
Jesus Guerrero is entitled to recover
nominal, general, actual, and special damages as a
result of the libel committed by Defendants.
JESUS GUERRERO'S CLAIM FOR
DEFAMATION—SLANDER
29.
All
previous
allegations
incorporated herein by reference.

are

30.
The
foregoing
statements
by
Defendants were false, both in their particular
details and in their main point, essence or gist in the
entire context in which they were made.
31.
The defamatory statements constitute
defamation per se in that they falsely state that
Guerrero was and had been “credibly accused” of
sexual misconduct of a minor, and are therefore
slander per se.
32.
The foregoing defamatory statements
by Defendant were published in oral form and
confirmed in various news interviews by
representatives of the Diocese of Lubbock. Said
statements, were defamatory regarding Guerrero in
that they injured his reputation and exposed him to
public hatred, contempt or ridicule. These false
statements were made with the intent to impeach

151a

Guerrero’s honesty, integrity, virtue or reputation.
33.
Defendant is strictly liable for the
damages caused by the slander. Alternatively,
Defendants were negligent with respect to the truth
or falsity of the defamatory statements of fact.
Defendant knew or should have known that the
defamatory statements of fact were false or were
reckless.
34.
Guerrero is entitled to recover nominal,
general, actual, punitive, and special damages as a
result of the slander committed by Defendants.
REQUEST FOR RETRACTION
35.
Guerrero has made a timely and
sufficient request for retraction of the defamatory
statements made by Defendant that satisfies any of
the requirements of TEX. C1V. PRAC. & REM.
CODE § 73.051 — 73.055. Guerrero requests for
retraction have fallen on deaf and malicious ears.
Guerrero continues to plea that Defendant retract
the false, defamatory, and damaging publications
described above.
JESUS GUERRERO'S INTENTINAL
INFLICTION OF EMOTIONAL DISTRESS
36.
Diocese of Lubbock has imposed
intentional infliction of emotional distress on
Guerrero. More specifically, (1) Diocese of Lubbock
acted intentionally or recklessly, (2) their conduct
was extreme and outrageous, (3) Diocese of
Lubbock’s actions have caused Guerrero emotional

152a

distress, and (4) the resulting emotional distress was
and continues to be severe.
37.
The
facts
as
outlined
herein
demonstrate that Diocese of Lubbock engaged in
conduct on a continuing basis, and as a continuing
tort as that term is known in Texas law, which
intentionally inflicted emotional distress on
Guerrero. The conduct of the Diocese of Lubbock was
intentional, reckless, extreme and outrageous and
such conduct proximately caused severe emotional
distress to Guerrero in a manner for which has no
other recognized theory of redress for such emotional
damages.
38.
The conduct of the Diocese of Lubbock
is the type of conduct that is so unique, so
outrageous and egregious that it cannot be accepted
in normal society and should be declared intolerable.
39.
The defamation done with the intention
of harming Guerrero personally, constitutes
intentional infliction of emotional distress and was
the proximate cause of such severe emotional
distress to Guerrero and his family that no
reasonable persons could be expected to endure it.
Guerrero and his family have suffered emotional
distress and mental anguish in the past and, in all
reasonable medical probability, such emotional
distress and mental anguish will have effects that
will cause him and his family to suffer emotional
distress and mental anguish in the future.
40.
In the alternative because, Defendant
engaged in a series of fact checking and legal

153a

consultation prior to releasing the “credible accused
of sexual assault on a minor” list, it had specific
knowledge that Guerrero had never been accused or
even investigated for sexual assault against a
minor; as such, Defendant’s actions were done with
intentional malice or wanton disregard for the truth,
and as such, their conduct was outrageous.
DAMAGES FOR PLAINTIFF, JESUS
GUERRERO
41.
All
previous
allegations
incorporated herein by reference.

are

42.
Plaintiff is entitled to nominal, general
damages, and actual damages resulting from
Defendants'
libel
and
slander,
including
compensation for injury to Guerrero’s reputation,
and mental anguish. Guerrero is entitled to recover
damages in an amount of money to fairly and
adequately compensate him for damages suffered as
a proximate result of the intentional infliction of
emotional distress, such amount to be determined by
the jury.
43.
Guerrero is also entitled to special and
consequential damages, including specifically, the
pecuniary loss suffered by him because of
Defendants' libel and slander.
44.
In addition to the damages set forth
above, Guerrero seeks to recover punitive or
exemplary damages against Defendants for their
conduct which constitutes malice as described
herein pursuant to Chapter 41 of the Texas Civil

154a

Practice & Remedies Code. Guerrero will ask the
Court, after hearing the evidence at trial, to instruct
the jury to consider the following factors in reaching
their verdict: (1) the nature of the wrong; (2) the
character of the conduct involved; (3) the degree of
culpability of the Diocese of Lubbock; (4) the
situation and sensibilities of the parties concerned;
and (5) the extent to which the conduct of the
Diocese of Lubbock offends a public sense of justice
and propriety. A jury of Lubbock County will be
asked to assess a sum of money against the Diocese
of Lubbock as exemplary damages as a penalty or by
way of punishment for their malicious conduct
which has injured Guerrero.
45.
Pleading further, and alternatively, if
necessary, Defendants are guilty of misconduct
which was committed knowingly, intentionally,
maliciously, wantonly, fraudulently, and in reckless
and callous disregard of the legitimate rights of
Guerrero so far as to justify the imposition of
exemplary damages. Plaintiffs seek recovery of such
exemplary damages from Defendant.
PRAYER
WHEREFORE,
PREMISES
CONSIDERED,
Plaintiff,
Jesus
Guerrero,
respectfully prays that the Defendant be cited to
appear and answer herein, and that upon a final
hearing of the cause, judgment be entered for the
Plaintiff against Defendant for damages in an
amount within the jurisdictional limits of the Court;
together with pre-judgment interest at the
maximum rate allowed by law; post-judgment

155a

interest at the legal rate, costs of court; and such
other and further relief to which the Plaintiff may be
entitled at law or in equity.
5HVSHFWIXOO\VXEPLWWHG
%\V1LFN2OJXLQBBBBBBBBBBBBBB
1LFN/2OJXLQ
7H[DV%DU1R
(PDLOQLFN#ROJXLQDQGSULFHFRP
0DLQ6WUHHW
/8%%2&.7;
7HO  
)D[  
$WWRUQH\ IRU 3ODLQWLII -HVXV
*XHUUHUR

3/$,17,))+(5(%<'(0$1'675,$/%<-85<
$77251(</,(1&/$,0('

156a

No. 07-19-00280-CV
In the Seventh District Court of
Appeals of Texas at Amarillo
DIOCESE OF LUBBOCK,
v.

Appellant,

JESUS GUERRERO,
Appellee.
On Appeal from Cause No. 2019-534,677
237th Judicial District Court
Lubbock County, Texas
Honorable Les Hatch, Judge Presiding
BRIEF OF APPELANT

157a

CR:97-98. But Patton dealt with the “ministerial
exception,” which is only a narrow part of the
broader ecclesiastical abstention doctrine. Patton
v. Jones, 212 S.W.3d 541, 547 (Tex. App.—Austin
2006, pet. denied). The cited portions of Patton
have no relevance or application here.
The ministerial exception discussed in
Patton applies only in cases concerning
employment decisions by religious institutions.
Patton, 212 S.W.3d at 547. When the doctrine
applies, the sole jurisdictional inquiry is whether
the employee is a member of the clergy or otherwise
serves a “ministerial” function. Patton, 212 S.W.3d
at 548. If the employee is a minister, then the
“ministerial exception” applies, preventing secular
review of the employment decision without any
further question as to whether the claims are
ecclesiastical in nature. Patton, 212 S.W.3d at 548.
The language upon which Guerrero relies is
quoted from Heard v. Johnson, an opinion from a
Washington D.C. court of appeals, setting out
three requirements for application of the
ministerial exception: (1) a claim flowing entirely
from an employment decision between the church
and its pastor; (2) the publication is confined
within the church; and (3) there are no unusual or
egregious circumstances. Patton, 212 S.W.3d at
554 (quoting Heard v. Johnson, 810 A.2d 871, 88485 (D.C.App. 2002)).
Neither Heard nor the elements it lays out
have any application in this case. First, this case
is not an employment case. Guerrero was not an

158a

employee, and Guerrero brings no claims that the
church wrongfully removed him from his position
as a deacon of the church. Moreover, the Diocese
does not rely on the narrow “ministerial
exception” to argue the trial court lacks
jurisdiction, but rather on the more expansive
ecclesiastical abstention doctrine. The ministerial
exception is irrelevant to this case.
And, contrary to Guerrero’s position, the
Patton court noted that there was no bright-line
rule distinguishing between defamatory remarks
published to members of the church versus
communications with third parties. Patton, 212
S.W.3d at 555 n.12. Several Texas cases illustrate
whether the ecclesiastical abstention doctrine
applies when publication is made to third parties.
In In re Godwin, the pastor read a prepared
statement from the pulpit at four different services
“marking” a former member as one who should be
avoided for causing division, relying on Romans
16:17. 4 In re Godwin, 293 S.W.3d at 746. Those
The court noted there are limits as to what can be said by
church officials from the pulpit, and that, under the facts of
that case, a statement that the former member was a child
molester would not be protected, although statements that
the former member engaged in bribery or slander were
protected. In re Godwin, 293 S.W.3d at 749. The facts here,
of course, are quite different. See also, In re Alief Vietnamese
All. Church, 576 S.W.3d 421, 436 (Tex. App.—Houston [1st
Dist.] 2019, orig. proceeding) (distinguishing In re Godwin).
First, Guerrero has not been accused of being a “child
molester,” but of having a credible allegation against him of
sexual abuse of a person who habitually lacks the use of
reason, which Canon law equates with a minor. CR:65.

4

159a

services included members, regular
attendees, guests interested in the

church

Further, the facts here must be considered in light of the
“scourge of abuse” that has plagued the Catholic church. See
CR:142. The Diocese here sought to end that cycle of abuse
and to encourage any additional victims to come forward.
See CR:142.

160a

https://www.everythinglubbock.com/news/klbk
-news/the-roman-catholic-diocese-of-lubbockplans-to-release-names-of-accused-priests/
The Roman Catholic Diocese of Lubbock plans
to release names of accused priests
by: Mari Salazar
Posted: Oct 10, 2018 / 10:34 PM CDT / Updated: Oct
10, 2018 / 10:34 PM CDT
The Catholic Diocese of Texas plans to release names
of priests accused of sexual abuse on January 31,
2019. The Roman Catholic Diocese of Lubbock plans
to release names, as well. The Bishop of Lubbock
said that they want to restore trust in the church
and protect children from crime.
RELATED :https://www.everythinglubbock.com
/news/local-news/lubbock-diocese-statementon-names-of-clergy-accused-of-sexualabuse/1513124387
Bishop Robert Coerver said they want to provide a
safe place for everyone and the first step is to be
transparent and help the victims through the
healing process.
“That trust has been damaged especially through the
events of this summer that have been widely
publicized,” said Coerver.
There are more than 1,000 Catholic parishes in
Texas and each one of those will be investigated. The

161a

church is reviewing any accusation against a priest,
not only involving minors.
“We’re going to have outside people come in and go
through our files just to make sure that we’ve got all
of the names and all of the circumstances so that
when it comes time to publish we’ll be as thorough as
we possibly can be,” Coerver explains.
In Lubbock, some of the cases date back as far as
1983. Coerver said those “credibly accused” of sexual
abuse of minors are not serving in the ministry.
“And if we find that they are..which I don’t believe
they are they would be removed form ministry
immediately and further investigation would be
done, but I don’t think we’re going to find that,”
Coerver said.
Over at the Voice of Hope, 38% of the victims they
meet with are minors and they want whoever
impacted by sexual assault to know there’s always
help.
“There will be people that would believe you. We will
help you and we will try to get you on the road to
healing,” said Leslie Timmons, Voice of Hope
Community Educator.
Coerver stresses they’re praying for the victims and
survivors of abuse of any kind. They pray especially
for those families whose trust in the church has been
broken.
“Those four words. Justice, Reparation, Mercy and
Compassion. I would consider those the four key

162a

words I hold very dear in trying to work our way out
of this crisis as a church,” said Coerver.



163a

TEXAS CATHOLIC CONFERENCE OF
BISHOPS
PREVENTING THE SEXUAL ABUSE OF MINORS
We are deeply sorry that some Church leaders have,
at times, failed in their responsibility to protect
minors. The Catholic Church throughout the United
States has worked to improve protection, especially
over the last fifteen years. We will remain vigilant to
provide an even safer environment for every child we
serve.
The Catholic Church in Texas is committed to the
prevention of sexual abuse of minors by those who
are in ministry in the Church and to promote healing
for survivors of abuse. Each diocese has
comprehensive policies in place both to respond to
complaints and to prevent the sexual abuse of minors.
These safety policies and practices are regularly
verified by an external audit of each diocese.
PREVENTION OF ABUSE
ŏ Safe Environment: All Texas dioceses have
implemented comprehensive “safe environment”
education programs and have together trained
many of the 8.5 million Catholics in the state –
adults, minors, employees, clergy, and volunteers
– on how to identify, report, and help prevent



164a

abuse. Prior to his anticipated ministry, every
priest seeking to minister in a diocese is to present
a written attestation of suitability supplied by his
bishop/religious superior.
ŏ Background Checks: The dioceses conduct
background evaluations for all bishops, priests,
deacons, and religious, as well as other diocesan,
parish, and school personnel who have regular
contact with minors. Since 2002, criminal
background checks have been completed regularly
on volunteers, employees, and clergy who are
involved in ministry in the Church.
RESPONSE TO ALLEGATIONS OF ABUSE
ŏ Reporting to Civil Authorities: All of the Texas
Catholic dioceses have policies to report to civil
authorities whenever there is cause to believe that
a minor has been sexually abused.
ŏ Removal from Ministry: Diocesan policies
provide that a bishop, priest, deacon, or religious
who has been credibly accused of sexually abusing
a minor will be removed from ministry.
HEALING OF SURVIVORS
ŏ Therapeutic and Pastoral Response: Each
diocese has a Victim Assistance Coordinator who
facilitates the provision of counseling and other
professional assistance to help those who report
they were sexually abused as a minor. In addition,
all victims of childhood sexual abuse by a minister
of the Church have the opportunity to meet with
the bishop in order to facilitate healing.



165a

PUBLICATION OF NAMES
ŏ Dioceses to Publish Local Lists: Texas dioceses
are actively reviewing files of bishops, priests, and
deacons. By January 31, 2019, each bishop will
publish a list of clergy credibly accused of sexual
abuse of a minor in his diocese dating back to at
least 1950.
ŏ How to Report: Visit http://txcatholic.org/howto-report for information on reporting abuse.



166a

FOX 34 NEWS TRANSCRIPT
FATHERS… ALPHONSE BOARDWAY…
NELSON DIAZ… PATRICK HOFFMAN… OMAR
QUEZADA… AND DEACON JESUS GUERRERO…
FIVE MEN WHO THE CHURCH REPORTS
HAVE “CREDIBLE” ALLEGATIONS OF SEXUAL
ABUSE AGAINST THEM.
BOARDWAY SERVED AT SAINT GEORGE
IN HASKELL… AND SAINT ANN IN STAMFORD.
HE WAS REMOVED FROM MINISTRY IN
’89… AND DIED IN ’97.
DIAZ… SERVED IN SAINT ELIZABETH…
OUR LADY OF GRACE… BOTH IN LUBBOCK….
SAINT FRANCIS IN WOLFFORTH AND SAN
RAMON IN WOODROW.
HE WAS REMOVED IN 20-11.
HOFFMAN DIED IN OH FIVE… HE SERVED
AT SACRED HEART IN PLAINVIEW… HE WAS
REMOVED IN ’87.
QUEZADA WAS ASSIGNED TO OUR LADY
OF GRACE IN LUBBOCK… HE NEVER SERVED…
AS HE WAS REMOVED FROM MINISTRY UPON
ARRIVAL IN 2003.
DEACON JESUS GUERRERO… SERVED AT
OUR LADY OF GRACE IN LUBBOCK FROM ‘97 TO
‘03 WHEN HE WAS SUSPENDED.
HE REAPPEARED AT SAN RAMON IN
WOODROW IN ‘06… THEN WAS PERMANENTLY
REMOVED FROM MINISTRY TWO YEARS LATER.

167a

MARTIN SAYS: “To our knowledge, everyone of these
were the first allegation that ever came forward and
they were removed immediately.”
MARTY MARTIN… CHANCELLOR OF THE
LUBBOCK DIOCESE SAYS IN ALL… THERE
WERE FIVE VICTIMS.
NONE OF THE MEN NAMED HAVE HAD
CIVIL OR CRIMINAL CASES BROUGHT AGAINST
THEM IN LUBBOCK COUNTY… NOR IN
FEDERAL COURT.
MARTIN SAYS IN SOME INSTANCES THIS
WAS SIMPLY DUE TO *PARENTS NOT WANTING
IT
TO
BE
PUBLIC*…
THOUGH,
ALL
INFORMATION WAS PROVIDED TO THE
PROPER AUTHORITIES.
THE REASON THESE NAMES WEREN’T
RELEASED SOONER?
MARTIN SAYS THE BISHOPS AT THE TIME
WANTED TO KEEP CHURCH ISSUES… WITHIN
THE CHURCH.
MARTIN SAYS: “The normal situation was that the
authorities were going to do what they were going to
do and if the name were released through the
authorities then that was fine, we certainly weren’t
going to object to that but we felt that whatever was
handled within the church as far as church
punishment was concerned needed to remain in the
church.”
HE DOES SAY THE NAMES WERE
RELEASED TO CHURCH MEMBERS… THOUGH
THEY WEREN’T MADE PUBLIC.

168a

IN HIS STATEMENT TO THE CHURCH…
BISHOP COERVER APOLOGIZES TO ALL
VICTIMS OF ABUSE… QUOTE… “FOR WHAT
YOU HAVE SUFFERED AND FOR THE WAY
CHURCH
LEADERSHIP
HAS
*SOMETIMES* FAILED YOU IN THE PAST.
VICTIM
SUPPORT
GROUP
SNAP…
SURVIVORS NETWORK OF THOSE ABUSED BY
PRIESTS… APPLAUDS THE RELEASE OF THE
NAMES… BUT REMAIN CAUTIOUS.
IT CLAIMS THE ONLY WAY TO ENSURE
BISHOPS IN TEXAS ARE TRULY SINCERE
ABOUT REBUILDING THEIR SACRED TRUST…
IS TO ALLOW FOR INDEPENDENT…. PROPERLY
TRAINED EXPERTS IN LAW ENFORCEMENT TO
REVIEW ALL THE FILES.
SNAP CITES THE “SECRET FILES” FROM
THE PENNSYLVANIA GRAND JURY REPORT
LAST YEAR.
IT ASKS KEN PAXTON’S OFFICE TO
INVESTIGATE THE CRIMES… AND WHAT IT
CALLS… COVER UPS.
MARTIN SAYS HE’S CONFIDENT ALL THE
PRIESTS WERE NAMED… HOWEVER HE URGES
YOU TO REPORT IF YOU’RE A VICTIM.
HE ALSO SAYS THE CHURCH *IS* SAFE
FOR CHILDREN.
MARTIN SAYS: “Everybody that volunteers or works
in any church function has to be compliant with the
safe environment program and all of that teaches the
individuals not just what they shouldn’t do but how

169a

they can recognize is someone else is doing something
that is inappropriate.
THE LUBBOCK DIOCESE’S RECORDS
ONLY DATE BACK TO 19-83.
BEFORE THAT… IT WAS PART OF THE
AMARILLO DIOCESE.
AMONG CASES REPORTED DURING THAT
TIME… FIVE OTHER PRIESTS FROM OUR AREA.
AMARILLO’S DIOCESE REPORTS A TOTAL
OF 30 CREDIBLE ACCUSATIONS.
AUSTIN KEMKER… FOX34 NEWS AT NINE.

